<html>
<title> - STATUS OF THE SIX-PARTY TALKS FOR THE DENUCLEARIZATION OF THE KOREAN PENINSULA</title>
<body><pre>[Senate Hearing 110-617]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-617

 STATUS OF THE SIX-PARTY TALKS FOR THE DENUCLEARIZATION OF THE KOREAN 
                               PENINSULA

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                       ONE HUNDRED TENTH CONGRESS



                             SECOND SESSION



                               __________

                            FEBRUARY 6, 2008

                               __________



       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web: 
              http://www.gpoaccess.gov/congress/index.html





                   U.S. GOVERNMENT PRINTING OFFICE
45-519 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001







                COMMITTEE ON FOREIGN RELATIONS          

           JOSEPH R. BIDEN, Jr., Delaware, Chairman          
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
              Antony J. Blinken, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          

                             (ii)          



                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware...........     1


Hill, Hon. Christopher R., Assistant Secretary, East Asia and 
  Pacific Affairs, Department of State, Washington, DC...........     5

      Prepared statement.........................................    12


Lugar, Hon. Richard G., U.S. Senator from Indiana................     4


                                Appendix

Responses to additional questions submitted for the record by 
  members of the committee.......................................    37

                                 (iii)



 
                     STATUS OF THE SIX-PARTY TALKS
                        FOR THE DENUCLEARIZATION
                        OF THE KOREAN PENINSULA

                              ----------                              


                      WEDNESDAY, FEBRUARY 6, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Kerry, Bill Nelson, Casey, Webb, 
Lugar, Hagel, and Murkowski.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will please come to order.
    Welcome, Mr. Ambassador. It's great to have you here. 
Senator Lugar is on his way down the hall, but, in the interest 
of time, what I'll do is start my opening statement, then yield 
to him, so we have as much time as we can with you.
    Thank you so much for being here. I will say, later in my 
statement, I think you're one of the gems we have in the 
Foreign Service, and I thank you for your service. You've done 
just a tremendous job. Let me just say that at the outset.
    Today, the Foreign Relations Committee will examine the 
efforts of the United States and other participants in the six-
party talks to remove the threat of nuclear weapons from the 
Korean Peninsula, and to build, hopefully, a permanent peace 
there.
    I want to welcome you, again, Mr. Ambassador, Assistant 
Secretary of State for East Asia and Pacific Affairs. You've 
been before our committee before, and it's an honor to have you 
back.
    And I also want to take note that the Foreign Relations 
Committee was originally scheduled to have Assistant Secretary 
Hill up here today to testify on a different subject--Vietnam--
and at a hearing chaired by our friend and committee member, 
Senator Boxer. I want to thank Senator Boxer, the chairwoman of 
our East Asian Subcommittee--and she's also chairman of the 
Environment and Public Works Committee--for agreeing to 
reschedule her hearing for March, at which time we will look 
forward to hearing from the Ambassador again.
    Senator Boxer has a hearing to chair at 10 o'clock in the 
Environment Committee. I offered her an opportunity to make an 
opening statement before her hearing, but she's not going to be 
able to be here to do that. But, again, I'd like to thank her 
for yielding to the full committee to allow us to move forward 
with this hearing on Korea.
    We all look forward to the day when we can close the book 
on the nuclear issue and turn to other challenges with regard 
to North Korea, like cooperation and expansion of trade, 
cultural educational exchanges--a more normal relationship. 
But, we're not there yet, to state the obvious. The New York 
Philharmonic will be playing a concert in North Korea at the 
end of this month, the first ever by a U.S. orchestra in North 
Korea. And I understand that they're going to perform the New 
World Symphony by Dvorak. I think that's kind of fitting. But, 
for now, we have to deal with the embattled world that we have, 
and keep our eye on the ball. The old world is the one we still 
inhabit.
    Our goal and the stated objective of the six-party talks is 
to peacefully dismantle North Korea's nuclear weapons program 
in exchange for energy assistance, sanctions relief, and a 
creation of a permanent peace on the Korean Peninsula. This is 
a noble objective, and it's consistent, in my view, with the 
vital interests and security interests of the six nations that 
joined these talks, because nuclear weapons offer only a false 
sense of security for North Korea. The Democratic People's 
Republic of Korea--DPRK, as it's called--will find true 
security, in my view, only when it has jettisoned its nuclear 
weapons program, rejoinined the Nuclear Non-Proliferation 
Treaty, and fully normalized relations, not only the United 
States, but, even more importantly, with its neighbors to the 
south.
    South Korea is a close friend and a close ally of the 
United States, and last December the South Koreans went to the 
polls and elected a new President, President Lee. Today, 
Senator Murkowski and I plan to introduce a resolution 
congratulating the President-elect of the Republic of Korea, 
their nation's vibrant democracy, and affirming our desire to 
strengthen and deepen our alliance in the years ahead.
    But, there's much to be accomplished, both on and off the 
Korean Peninsula. Some say we should never negotiate with North 
Korea, because they can't be trusted, and this view offers, 
unfortunately, no viable solution to a problem that got much 
worse during this last administration, when the administration 
disengaged. We wasted, in my view, a lot of time, time that 
North Korea used to acquire uranium enrichment equipment and to 
more than double its stockpile of plutonium, leading, 
ultimately, to an actual test of a nuclear device in October 9 
of 2006. There is still, in my view, though, no substitute for 
patient, principled, sustained, high-level diplomacy. And our 
efforts are more likely to succeed, moreover, when we enlist 
those of our allies--South Korea, Japan, and others of our 
friends--to help us. Only through a mutual, respectful, 
hardheaded diplomacy can we bridge our differences and find any 
common ground. That's what this committee has been calling for, 
on a bipartisan basis, for the past 6 years.
    The formula for success is clear, if there is any, and I'm 
glad President Bush embraced it and chose Ambassador Hill to 
undertake it. The formula is validated by history. President 
George Herbert Walker Bush, in 1991, agreed to remove U.S. 
tactical nuclear weapons from the Korean Peninsula, weapons we 
no longer needed to station in South Korea, given the advances 
in technology, and thereby convinced North Korea to remain 
inside the Non-Proliferation Treaty and accept inspections. 
Inspections by the IAEA yielded evidence, late in 1992, that 
North Korea was violating the NPT commitments, as well as the 
terms of the 1991 North-South Joint Declaration on 
Denuclearization of the Korean Peninsula.
    Without the first President Bush's diplomatic efforts, we 
might have remained in the dark, giving North Korea a free path 
to pursue its nuclear ambitions unchecked. Under President 
Clinton, the United States negotiated the October 1994 Agreed 
Framework. The North agreed to freeze, and eventually 
eliminate, its nuclear facilities under international 
monitoring; in exchange, Pyongyang was to receive two 
proliferation-resistant lightwater nuclear reactors and annual 
shipments of heavy fuel oil during construction of these 
reactors. These lightwater reactors were to be financed and 
constructed through the Korean Peninsula Energy Development 
Organization, a multinational consortium, including South 
Korea, Japan, and the European Union. The Agreed Framework 
failed to eliminate the North's nuclear program, but it did 
prevent the North from producing even 1 ounce of plutonium from 
1994 to 2003, and I view this as no small accomplishment.
    And the creation of the Korean Peninsula Energy Development 
Organization established a useful precedent; namely, that the 
United States should reach out to other nations that share our 
interest in a nuclear-free Korean Peninsula and to help 
shoulder the financial and diplomatic burdens.
    Under the terms of the February 17, 2007, agreement 
hammered out by our witness today and North Korea's lead 
negotiator, North Korea promised to freeze, and then dismantle, 
its nuclear facilities, and to provide a complete and accurate 
declaration of all its nuclear program facilities and 
materials. In exchange, the North is to receive energy 
assistance and sanctions relief. The ultimate goal remains the 
same: The complete dismantlement of the North's facilities in 
exchange for normalization of relations with the United States 
and the establishment of a permanent peace regime in the Korean 
Peninsula.
    The freeze was implemented without a hitch, and North 
Korean workers, under the direct supervision of U.S. 
technicians are, today, in the process of dismantling three key 
nuclear facilities: The reactor, the spent fuel reprocessing 
plant, and the fuel fabrication plant. North Korea is no longer 
in the plutonium production business. But, as we'll hear from 
our witness, we still have a long way to go. The North has not 
yet submitted a complete and accurate declaration of its 
nuclear program, as called for by the agreement. The original 
December 31, 2007, deadline to do that has come and gone.
    North Korea's preferred outcome still appears to be both a 
limited nuclear deterrent and good relations with the United 
States. But, unfortunately for them, they're going to have to 
choose--choose one or the other. The United States should not 
acquiesce in a nuclear-armed North Korea.
    I hope Secretary Hill will share with us the 
administration's game plan, going forward. How does the 
administration plan to convince North Korea to submit a 
declaration of its nuclear activities, including any 
proliferation of nuclear knowhow, and do it promptly, so that 
we can get on with the business of dismantling the North's 
nuclear facilities, removing fissile material from the country, 
and ultimately normalizing our bilateral relations and 
integrating North Korea into the community of nations? What do 
we want South Korea, China, Japan, and Russia, as equal 
partners in the six-party talks, to do to help us?
    I also hope the Ambassador will share with us some thoughts 
on how the administration plans to actually implement the next 
phase of the agreement. Specifically, I hope he'll address the 
concern that Senator Lugar and I have expressed about the Glenn 
amendment, which currently prohibits the Department of Energy 
providing more than token assistance to the denuclearization 
effort. Senator Lugar and I have drafted legislation providing 
the Department of Energy and the Department of State with the 
necessary authority to implement a robust denuclearization 
plan, and I hope the administration will endorse it.
    Mr. Ambassador, I look forward to your testimony.
    And now, let me turn to my colleague, Senator Lugar.
    Mr. Chairman.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman.
    I join you in welcoming to the committee this opportunity 
for us to consider ongoing developments in the elimination of 
the North Korean nuclear program.
    Remarkable progress has been achieved since the committee's 
last hearing on the North Korean situation which was conducted 
in July 2006. Last year, through the six-party talks, the 
United States, North Korea, South Korea, Japan, Russia, and 
China reached agreement on shutting down and sealing North 
Korea's main nuclear facility. In addition, there was agreement 
that the International Atomic Energy Agency, the IAEA, would be 
invited back to North Korea, and that North Korea would declare 
its nuclear programs.
    Last July, North Korea took the necessary steps, in its 
Yongbyon nuclear facilities, to stop producing plutonium--
American technicians now are working at Yongbyon, observing and 
reporting on the disablement process. Personnel of the IAEA are 
present, as well. These disablement activities go well beyond 
anything undertaken under the Agreed Framework of the 1990s or 
in this decade. Although it is too early to determine the 
technical details of how North Korea's nuclear program would be 
disassembled, a Nunn-Lugar cooperative threat-reduction model 
could be applied in North Korea. Officials in Pyongyang have 
sought information about the Nunn-Lugar program. I believe it's 
in the interest of North Korea, the United States, and the 
other six-party powers to preserve the significant progress 
that has been made toward a denuclearization of North Korea and 
a normalization of relations with that country that would be 
anticipated to follow. The United States continues 
to accept the, ``action-for-action approach'' adopted through 
the 
six-party talks. In fact, Ambassador Hill and State Department 
colleagues have begun consultations with the Congress in 
preparation for possibly removing North Korea from the list of 
state sponsors of terrorism, as well as eliminating the 
designation of North Korea under the Trading with the Enemy 
Act. However, it was not prudent for the Bush administration to 
proceed with these two steps when North Korea failed to provide 
a complete and thorough declaration of its nuclear program by 
the end of 2007, as earlier agreed.
    I understand that all six powers are focused on distinct 
steps in the process. We're concerned with the pace of 
compliance with these actions that have been agreed on. Yet, 
ultimately, the process depends on the commitment and the will 
of the top leaders. And this includes Chairman Kim Jong Il. He 
has written, ``In any work, it is necessary to identify, 
correctly, the main knot in the whole string, and undo it first 
by a concentrated effort which will make it easier to unravel 
the other knots and push ahead with the whole work 
successfully.'' Such an effort would be usefully applied by 
North Korea to the present situation.
    In recent months, North Korean observers have noted the 
ascendancy of North Korea's Foreign Ministry in matters related 
to the six-party talks and negotiations with the United States. 
This is in line with the authority and confidence President 
Bush has placed in Secretary Rice and Assistant Secretary Hill. 
As conditions warrant, and in coordination with the Department 
of State and South Korea, Secretary Gates should be prepared to 
engage with North Korean military leaders on a wide range of 
issues, such as the POW-MIA Joint Recovery Program, which the 
Defense Department suspended in 2005.
    President Bush, Secretary Rice, Secretary Gates, Assistant 
Secretary Hill are committed to the implementation of the six-
party agreements. A majority in Congress are prepared to work 
with President Bush on projects related to North Korea's 
weapons of mass destruction and on steps toward establishment 
of normal diplomatic relations. I do not believe that U.S. 
commitment to the six-party talks, or its determination to 
ensure the peaceful denuclearization of North Korea, will 
change with the election of a new administration.
    Moreover, Members of Congress, myself included, are 
following this situation intently to support and fortify a 
unified vision on policy toward North Korea within our own 
Government. As the Nunn-Lugar program demonstrated in the 
former Soviet Union, remarkable progress can be based on mutual 
interests and a joint resolve to achieve peaceful outcomes. We 
should not assume that a similar result cannot be achieved in 
North Korea.
    I join the chairman in welcoming back Secretary Hill, and 
we look forward to your testimony.
    The Chairman. Mr. Secretary, the floor is yours.

  STATEMENT OF HON. CHRISTOPHER R. HILL, ASSISTANT SECRETARY, 
EAST ASIA AND PACIFIC AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, 
                               DC

    Ambassador Hill. Well, thank you very much, Mr. Chairman. 
And thank you for those kind words about our effort.
    I also want to comment on the idea of holding a hearing on 
Vietnam, which I would very much look forward to. I understand 
Senator Boxer was very much interested in that. I think we're 
working on a March date which would work very well, because I 
plan to make a visit to Vietnam in the very beginning of March. 
It'll be my fourth visit. And so, upon my return, I think I'd 
be in a position to give you very fresh information about that 
very, very interesting----
    The Chairman. We appreciate that very much. And, again, I 
want to say, with more of the committee members here, that 
Senator Boxer had that hearing scheduled for today, and she was 
kind enough to yield to the full committee to have the hearing 
on Korea. So, that's why I referenced it in the beginning. But, 
we look forward to that, as well----
    Ambassador Hill. OK.
    The Chairman [continuing]. Mr. Secretary.
    Ambassador Hill. I have lengthy statement that I would like 
to enter into the record.
    The Chairman. The entire statement will be placed in the 
record as if you delivered it, sir.
    Ambassador Hill. Thank you very much.
    Mr. Chairman, it's a pleasure to come here and to brief the 
committee on the status of the six-party process. We are in an 
important phase. We have an agreement, in October--October 
2007--which called for this phase to be over on December 31. 
And, of course, we have not met that deadline.
    The main elements of the October 3rd agreement have to do 
with the DPRK's agreement to disable the plutonium production, 
the Yongbyon nuclear facility. It also calls for the DPRK to 
give us a complete and correct declaration of all of their 
nuclear programs--their materials, their facilities, and their 
programs. And this declaration, of course, is important, 
because it forms the basis of further dismantlement of all 
their nuclear activities.
    I can report to you on the status of the disabling 
activities, and I can also report to you on the status of North 
Korea's efforts to get a complete and correct declaration. And 
I can tell you what we are doing to try to get that complete 
and correct declaration. And if we are successful with that, 
I'd like to also give you a picture of where we intend to go 
from here, and how we intend to get to the end of this very 
long road.
    First of all, with respect to the disabling activity, the 
DPRK asked that U.S. technicians, on behalf of the six-party 
process, actually perform the disabling activities. And so, we 
have had teams of U.S. technicians there. We've had about five 
people at a time. They rotate in and out, in 2-week intervals. 
We had five people there through the Thanksgiving holiday. We 
had another five people there through the Christmas holiday. 
And they have been doing, truly, a remarkable job of getting 
this nuclear facility disabled.
    Now, what does ``disabling'' mean? We identified some 11 
tasks to be conducted, the sum total of which is to make it 
very difficult to put the nuclear facility back into 
operation--not only to make it difficult, but also to make it 
expensive. So, the tasks have been centered on the three core 
activities in that nuclear facility; that is, first of all, the 
fuel fabrication facility, where they actually make the rods; 
second, the reactor, where they take the rods and put them in 
the reactor to make the reactor work; and, third, the 
reprocessing facility, where they take spent fuel from the 
reactor and reprocess that into plutonium--eventually, weapons-
grade plutonium.
    So, I can report to you that the disabling activities have 
gone very well. We've had very good cooperation from the North 
Korean people at the facility, and we have, essentially, at the 
reprocessing plant, all the agreed disabling tasks were 
completed prior to December 31, including the removal of 
several key pieces of equipment that were very necessary for 
the separation of the plutonium from the spent fuel rods.
    In addition, major pieces of equipment at the fuel 
fabrication plant were also disabled and removed prior to 
December 31.
    One of the primary disabling activities at the reactor is 
the discharge of spent fuel. Once you take out that spent fuel, 
you cannot put it back in. That is a process that is underway. 
It got underway late, due to safety--health and safety 
concerns, by our team, that the pond, the place that they put 
these spent fuel rods, was unsafe, and they needed to spend 
some time to clean that up. The process is underway, but, of 
late, the North Koreans have also slowed down that process. And 
I will get to the question of--or, to the issue of why that has 
been slowed down. But, it is very much underway.
    I think what is also significant--when I visited the 
facility at the end of November, beginning of December, what 
was significant to us is the fact that the technicians onsite 
were not talking about in any way reconstituting this facility; 
they understood that disabling is on the road for eventual 
dismantling, which will take place in the next phase, and its 
complete abandonment. In addition, it's very important to 
contrast this disabling activity, which was not done in the 
1990s, with the--with just the freeze that was done in the 
1990s, because currently the North Koreans are not doing 
regular maintenance.
    So, I think, viewed in its entirety, assuming we are able 
to complete all 11 tasks--and we do anticipate getting that 
done--we will have a facility that, in the--the totality of the 
11 tasks, it's unlikely that this facility will ever be put 
back into operation. So, we feel that this has been a very 
positive development.
    Where the situation is less positive, of course, is the 
requirement that they provide a complete and correct 
declaration. Let me take you through that, what we're really 
looking for in that declaration.
    There are essentially three elements to the declaration. 
First of all--the first element is nuclear materials. And here, 
based on our conversations with the DPRK, we have very good 
reason to believe that, when they give us the amount of 
separated plutonium, the actual weapons-grade plutonium that 
they have, that we will get an amount that we will be able to 
verify. We can verify through a number of means, including 
production records. So, they have agreed to do that. And this 
is important, because identifying the status of the plutonium, 
and how much there is, and verifying the figure, is extremely 
important--extremely important from their own weapons 
development programs, but also extremely important from the 
point of view of proliferation issues. So, they've agreed to do 
that.
    We are working with them to make sure they also include in 
the list of materials what the state of their weapons 
development is; that is, we know they have an explosive device, 
because they were able to explode fissile material--that is, 
have a nuclear test, in October 2006--so, we need to know about 
the development of their weapons. There, it has been more 
problematic in my discussions with them, but we need to 
continue to work with them and make sure that, in the 
declaration, we can get insights into their actual weapons--if 
any--weapons development that they have.
    The second main area has to do with facilities. And here, 
we know, through national technical means, what their nuclear 
facilities are. They know what their nuclear facilities are. 
And, perhaps most importantly, they know that we know what 
their nuclear facilities are. And I think, with respect to that 
second cluster of issues in the declaration, we can come to an 
agreement, when they provide the declaration.
    The third issue, however, is more problematic; that is, in 
the area of overall programs. Here, we need to know about the 
plutonium program. And I think we will come to an agreement on 
what that looks like in the declaration. But, we are also very 
aware that they have made many purchases that are entirely 
consistent with the development of a highly enriched uranium 
program. And, as you know, the CIA has assessed, with high 
confidence, that they did have an effort to develop this 
program. We need to know more about the status of this program. 
If it is terminated, we need to know when it was terminated. 
Obviously, if it continues, we need to ensure that it is 
terminated.
    We have worked very closely with the North Koreans on this 
issue, because this was such a key issue; it was the basis, 
really, for ending the Agreed Framework. Through our diplomatic 
talks with the North Koreans, we have been able to get them to 
identify some of the key components that they purchased for 
uranium enrichment, but which are now--and they showed us the 
facility--being used for nonuranium-enrichment purposes; that 
is, nonnuclear purposes. This was an important development, 
because we are able to see that some of these materials, which 
would be essential to building a uranium enrichment facility, 
were not in a uranium enrichment facility. More work has to be 
done on that, and more work will be done on that, so that we 
can clearly say, at some point in the future, that we can rule 
out that they have any ongoing program for uranium enrichment.
    Finally, it is our considered belief that DPRK has engaged 
in cooperation with abroad in their nuclear--with their nuclear 
technology. Now, they have said to us they have no ongoing 
programs, no ongoing cooperation with any country with respect 
to nuclear technology or know how of any kind. They have also 
affirmed--they did it in the October agreement, they've done it 
previously--that they will not have any such program. So, 
they've ruled it out for the future, they've ruled it out for 
the present, but we need to know what went on there in the 
past.
    Now, this is not just an effort on our part to just have a 
historical exercise. We believe that, as we go forward, we need 
more transparency from the North Koreans on this. We need to 
know what they were up to in the past. We need to have a clear 
picture of that, so that we can go forward.
    We are continuing to work on all of these--all of these 
elements. And it is important for us to do so, because we 
cannot accept a declaration that is incomplete or incorrect.
    So, Mr. Chairman, I think we are continuing--we are 
continuing to work on that. I don't want to make bets about a 
game that I'm playing in, but we have reason to believe that we 
can continue to make progress. And, while we are not at all 
happy that we've missed our deadline--that is, December 31--we 
believe it's worth continuing to work on this.
    Now, on our side, part of the agreement on the disabling 
activity and the complete list of nuclear materials, 
structures, and programs--from our point of view, we were 
obliged to do certain things. Most important of these was to 
provide a total of 950,000 tons of heavy fuel oil. And this 
950,000 tons is in respect of these two undertakings by the 
North Koreans; that is, disablement and declaration.
    We have shared the burden of providing this heavy fuel with 
other members of the six-party process. We work with the 
Russians and with the South Koreans and Chinese on this, with 
the understanding that the Japanese are also prepared to 
joining this, once some of their major concerns are addressed. 
And I will get back to what the Japanese concerns are.
    So, to date, as we sit here today, the DPRK has received 
about 200,000 tons of heavy fuel oil; that includes the 50,000 
tons that they received for just the shutdown of the facility. 
So, in total, they have received one-fifth of the total fuel 
oil that is due them, according to this October agreement. We 
are prepared to continue that, because they are prepared to 
continue the disablement, which we hope we can complete soon. 
We are also prepared to continue that heavy fuel oil because we 
are continuing work in a spirit of trying to solve the problem 
of the declaration. So, we believe this heavy fuel oil has been 
an important aspect of the inducement for them.
    In addition, under the October 3 agreement, the U.S. also 
reaffirmed its intent to fulfill its commitments regarding 
rescinding the designation of North Korea as a state sponsor of 
terrorism, and the termination of the application of the 
Trading with the Enemy Act with respect to the DPRK. U.S. 
action related to the terrorism designation and Trading with 
the Enemy Act application will depend, of course, on the DPRK's 
fulfillment of its second- phase commitments on providing a 
complete and correct declaration and disabling its nuclear 
facilities, as well as on the satisfaction of the legal 
requirements.
    As we move forward on this process, as the North Koreans 
move forward on their process, Mr. Chairman, I'm here to assure 
you that we will work very closely with this committee and with 
other Members of the Senate and the Congress to make sure that 
we are approaching this in a transparent and collegial way, so 
that all can understand what the process is, ahead.
    At the same time, the United States will also continue to 
press the North Koreans to address other important issues, 
including the questions about the Japanese abductees. We will 
continue to urge the North Koreans, at every opportunity, to 
address Japanese concerns. Mr. Chairman, I can assure you, I 
have done this personally on many, many, many occasions, and I 
will continue to do this in the future. It is very important 
for North Korea that, as it goes forward--and we hope that it 
accepts a denuclearized future--that it understands that having 
a good relationship with Japan is a key part of that future. 
And we have really pressed the North Koreans to understand that 
and to understand the depth of feelings in Japan about this 
abductee issue. These were people, in some cases, taken off the 
streets, during a period in the late seventies and early 
eighties. This is an issue that goes far beyond just people in 
the Japanese Government concern, this is an issue that the 
general Japanese public feels very strongly about. And we owe 
it to our Japanese allies to really be vigilant and see what we 
can do to help get this problem resolved.
    I want to also mention one other issue that's very 
important to us, and that is, of course, the issue of nuclear 
proliferation. We believe that, within the six-party process, 
we can continue to address this issue, continue to press the 
North Koreans on this issue, and, frankly, continue to monitor 
this issue, because this is part of the October 3 agreement 
that they have agreed not to engage in these types of 
activities. So, we are continuing to consider the issue of 
proliferation to be a very important element of what we're 
doing.
    Mr. Chairman, as time permits, let me just say a couple of 
words about where we hope this will lead to. If we can get a 
complete and correct declaration, and if we can complete the 
phase-2 activities, we will then move to phase 3. It is our 
hope that phase 3 will be the final phase, because we cannot 
have this lengthy process go on and on, we do need to reach 
this culminating moment. And we believe that we have some 
elements that we can put on the table which will be worth the 
DPRK's while in giving up its nuclear ambitions. One of the 
elements is, of course, to put on the table our preparedness, 
not only to improve bilateral relations, because we've been 
doing that, but, in the context of full denuclearization, we 
would be prepared to establish full diplomatic relations.
    Now, in establishing full diplomatic relations, upon 
denucle- arization, this is not to say that we are ignoring 
every other problem, or that somehow we consider the only issue 
to be denu- clearization. I mention that, Mr. Chairman, because 
I want to assure you, and I want to assure the committee, the 
importance that I personally, and that the administration, 
attaches to the human rights issue. We want to work with the 
DPRK on that issue. We want to work with them in a way that 
they will understand that, as they join the international 
community, that it's in their interest to improve their human 
rights record. Every country needs to improve its human rights 
record. And, in that, I must say, without too much 
understatement, the North Koreans are no exception. So, we 
would work hard on that issue, in the context of establishing 
our relations with them. We would try to, for example, set up a 
human rights dialog, the sort of thing that has been done 
successfully in other countries, because, at the end of the 
day, if North Korea truly wants to join in the international 
community, it's got to address the human rights issue. It is a 
practical matter. We need to address it in a practical way, to 
find ways that this can be improved in the short term, medium 
term, and long term. So, one issue that we have--will have--on 
the table is this full diplomatic relationship.
    A second issue that we will have on the table is our 
commitment, if the DPRK so wishes, to work with the DPRK and 
the South Koreans and the Chinese on creating a peace 
mechanism, a peace process, peace regime, on the Korean 
Peninsula. We believe that the discussion of a Korean Peninsula 
peace regime could begin among the directly related parties 
once the DPRK has disabled its existing nuclear facilities; 
that is, we would want to do this, right at the start of this 
next phase, once we get through this declaration, with the 
understanding that we cannot finally reach a peace regime 
unless we have a denuclearized North Korea. But, we believe 
this would be of interest to the North Koreans.
    A third locus of activity would be on something called 
Northeast Asia Peace and Security Mechanism. The purpose of 
this is to try to begin the process of establishing a sense of 
community in Northeast Asia. Now, a lot of people look at this, 
and they say, ``Oh, this would be an Asian version of CSCE or 
OSCE.'' Perhaps it will. But, for now, we need to see what it 
can look like, what the parties can agree to. This has to be 
worked out carefully with parties who have very different--very 
different outlooks on the whole process. But, we'd be prepared 
to do this, and to, of course, make North Korea one of the 
founding members.
    And, finally, a fourth area would be our willingness to 
work with the North Koreans to see about getting them into more 
international fora, getting them more access to international 
economic assistance; in particular, getting them access to what 
the international financial institutions can offer.
    Mr. Chairman, I don't know if you've had the pleasure of 
driving through North Korea yet, but when you see North Korea, 
the first thing that will strike you is the sense of economic 
deprivation, the sense that its people need a lot of help, and 
a lot of help, very soon. And, in that regard, not only would 
we be prepared to work with the international financial 
institutions, but we also--and this has already started--we 
continue to be prepared to provide humanitarian assistance, 
whenever we can, and to work very closely with the North 
Koreans to try to address the difficulties that its people are 
facing.
    Mr. Chairman, this is tough process. I know there are a lot 
of people who wonder why we did it step-by-step. And the answer 
is, I would have preferred to do it one day, one morning when 
everyone fell out of bed and decided that North Korea would 
denuclearize. The problem is, they weren't ready to do it in a 
morning. So, we've had to work on a step-by-step basis.
    I'm pleased that we got the reactor shut down. I'm pleased 
that we're--we've got the disablement activity well underway, 
but I'm daunted by the need to work, in the next phase, to get 
complete denuclearization. But, in looking at that very 
difficult task, I do feel good about the fact that we are 
working very closely with neighbors in the region. Our 
relationship with China is better as a result of the six-party 
process. We have worked very closely with our Japanese and 
South Korean allies. As you know, there will be a new South 
Korean Government taking office at the end of this month; we 
have been working very closely with the transition there, but 
also working with the current government. It has been very 
important to work diplomatically to create these relationships. 
And I believe that this Peace and Security Mechanism that we're 
talking about in Northeast Asia will really be a logical 
follow-on to the six-party process.
    So, Mr. Chairman, with those comments, and with the 
statement that I've entered to the record, I'm available for 
any and all questions and comments.
    Thank you.


    [The prepared statement of Ambassador Hill follows:]


Prepared Statement of Hon. Christopher R. Hill, Assistant Secretary of 
 State, Bureau of East Asian and Pacific Affairs, Department of State, 
                             Washington, DC

                              introduction
    Thank you, Chairman Biden, ranking member Lugar, and distinguished 
members for inviting me to discuss with your committee recent 
developments in our efforts to achieve the verifiable denuclearization 
of the Korean Peninsula through the six-party process.
    I have had the opportunity to brief many of you on the six-party 
talks over the last few months. Since that time, we have made progress 
on implementation of the October 3, 2007, agreement on ``Second Phase 
Actions for the Implementation of the Joint Statement,'' particularly 
on the disablement of the Yongbyon nuclear facility. We continue to 
have good cooperation with the DPRK on implementation of agreed 
disablement tasks. These advances notwithstanding, we are again at a 
critical, challenging point in the six-party process, as we and our 
six-party partners work toward the completion of the second phase. 
Specifically, we are working to ensure that North Korea follows through 
on its commitment to provide a complete and correct declaration of all 
its nuclear programs, including its nuclear weapons.
               implementation of the october 3 agreement
    The October 3 agreement builds on the February 13, 2007, agreement 
on ``Initial Actions for the Implementation of the Joint Statement,'' 
under which the DPRK shut down and sealed the core nuclear facilities 
at Yongbyon and invited back the International Atomic Energy Agency 
(IAEA) to conduct monitoring and verification activities, as provided 
for in the February 13 agreement. Under the October 3 agreement on 
second-phase actions, the DPRK agreed to disable all existing nuclear 
facilities subject to abandonment under the September 2005 joint 
statement and February 13 agreement, beginning by disabling the three 
core facilities at Yongbyon by the end of the year. The DPRK also 
agreed to provide a complete and correct declaration of all its nuclear 
programs by the end of the year.
Disablement
    Disablement of the three core facilities at Yongbyon--the 5-MW(e) 
nuclear reactor, reprocessing plant, and fuel rod fabrication 
facility--is proceeding well. A rotating team of U.S. experts has been 
on the ground overseeing the disablement of these facilities since 
early November and will remain in place throughout the completion of 
the agreed disablement activities. Upon completion, the specific 
disablement actions should ensure that the DPRK would have to expend 
significant effort and time (upward of 12 months) to reconstitute all 
of the disabled facilities. This would curtail their ability to produce 
new weapons-grade plutonium at Yongbyon. Our experts report continued 
good cooperation with DPRK experts at the site, and most of the agreed 
disablement tasks at the three core facilities have been completed.
    Specifically, all agreed disablement tasks at the reprocessing 
plant were completed prior to December 31, 2007, including the removal 
of several key pieces of equipment necessary for the separation of 
plutonium from spent fuel rods. Similarly, major pieces of equipment at 
the fuel fabrication plant were disabled and removed prior to December 
31. One of the primary disablement tasks at the 5-MW(e) reactor--the 
discharge of spent fuel--is now underway. Due to health/safety and 
verification concerns, the parties understood that the fuel discharge 
(consisting of approximately 8,000 rods in the reactor core) would 
continue beyond December 31, 2007. In the meantime, other disablement 
tasks, including the destruction and removal of the interior structure 
of the cooling tower, were completed prior to December 31, 2007.
    At the request of the six Parties, in addition to leading the 
disablement activities, the United States is also providing initial 
funding for these activities. As we look to the tasks ahead in the next 
phase, dismantlement, we will request additional authorities in order 
to ensure that the United States is prepared to take timely action to 
facilitate completion of these important tasks. We are in active 
discussions within the administration on dismantlement costs and will 
consult with Congress.
Declaration
    The other key element of phase II--provision by the DPRK of a 
complete and correct declaration of all its nuclear programs--remains 
to be implemented. Let me be clear--``complete and correct'' means 
complete and correct. This declaration must include all nuclear 
weapons, programs, materials, and facilities, including clarification 
of any proliferation activities. The DPRK must also address concerns 
related to any uranium enrichment programs and activities. While we 
have had discussions of a declaration with the DPRK, the DPRK did not 
meet the December 31, 2007, deadline for this commitment, and we have 
still not received such a declaration. We and the other parties 
continue to press the DPRK for completion of this important commitment. 
A U.S. team was recently in Pyongyang to continue these discussions, 
and the other parties have also continued to engage with the DPRK to 
press for it to live up to its commitments. The DPRK, including leader 
Kim Jong-Il, maintains that it is committed to the six-party process 
and to fulfilling all its obligations. Working closely with our six-
party partners, we intend to ensure that Pyongyang lives up to its word 
by submitting to the Chinese chair as soon as possible a declaration 
that is, in fact, complete and correct.
    As the DPRK fulfills its commitments, the United States remains 
committed to fulfilling ours. The other Parties agreed to provide the 
DPRK with 1 million tons of Heavy Fuel Oil (HFO), or equivalent, in 
return for its actions in the initial and second phases. To date, the 
DPRK has received almost 200,000 tons of HFO, including one shipment 
each from South Korea, China, Russia, and the United States. The Six-
Party Talks Working Group on Economy and Energy Cooperation has 
informally agreed to provide half of the energy assistance in HFO and 
the remaining half in HFO-equivalent, namely materials and equipment 
related to refurbishing coal mines and thermal and hydro powerplants. 
The United States has thus far only provided HFO, and we are in the 
process of preparing another shipment. We have also cooperated with the 
other Parties in ensuring that HFO-equivalent materials and equipment 
are consistent with U.S. laws controlling exports to the DPRK.
    Under the October 3 agreement, the United States also reaffirmed 
its intent to fulfill its commitments regarding rescinding the 
designation of the DPRK as a state sponsor of terrorism and the 
termination of the application of the Trading with the Enemy Act (TWEA) 
with respect to the DPRK. U.S. action related to the terrorism 
designation and TWEA application will depend on the DPRK's fulfillment 
of its second-phase commitments on providing a complete and correct 
declaration and disabling its nuclear facilities, as well as on 
satisfaction of legal requirements. The legal criteria for rescinding 
the designation of a country as a state sponsor of terrorism are set 
forth in U.S. law, and the administration intends to consult closely 
with Congress and follow appropriate procedures on any decision to take 
action on the terrorism designation or TWEA.
    At the same time, the United States will also continue to press the 
DPRK to address other important issues, including questions about 
Japanese abductees. We will continue to urge the DPRK at every 
opportunity to address Japan's concerns. Japan is an important friend 
and ally of the United States, and we will continue to consult closely 
with the Japanese Government as we move forward.
    We also remain very concerned about nuclear proliferation--the 
potential for such proliferation has always been one of our major 
concerns about the DPRK's nuclear weapons programs. In the October 3 
agreement the DPRK reaffirmed its commitment ``not to transfer nuclear 
materials, technology, or know-how,'' and we intend to hold North Korea 
to its word. We have discussed this issue with the North Koreans many 
times and will remain vigilant about proliferation concerns. The North 
Koreans are cognizant of the fact that United Nations Security Council 
Resolution 1718 remains in effect.
                   offering the dprk a better future
    While we are in a difficult period, we remain confident that the 
six-party process is the best mechanism to address the danger to the 
United States and the international community posed by the DPRK's 
nuclear programs. We continue to urge the DPRK to provide a complete 
and correct declaration and complete the agreed disablement actions. 
Even once we have completed this phase, however, significant work 
remains. Following completion of the second phase, we hope to move 
quickly into a final phase, which will be aimed at abandonment of North 
Korea's nuclear weapons and existing nuclear programs, dismantlement of 
all North Korea's nuclear facilities, capture of all fissile material 
the DPRK has produced, and verification of North Korea's 
denuclearization.
    In exchange, the United States is prepared to transform our 
relations with the DPRK into a more normal relationship. The United 
States and DPRK have committed to improving bilateral relations and 
working toward full diplomatic relations. One way we will seek to do 
this is by increasing bilateral exchanges between the United States and 
DPRK aimed at enhancing mutual trust. Our goal through this process 
will remain improving the lives of the people of North Korea.
    On a separate track, to address humanitarian assistance needs, the 
United States is aware of, and concerned about, possible food shortages 
in the DPRK in 2008. We are prepared to help respond to such shortages, 
subject to appropriate program management consistent with international 
standards. We assisted U.S. NGOs in providing aid to fight the outbreak 
of infectious diseases following floods in North Korea last summer. The 
United States is also working with U.S. NGOs to carry out a plan to 
improve the supply of electricity at provincial hospitals in North 
Korea.
    We have also made clear to the DPRK how much we value the 
advancement of human rights in all societies and that discussion of 
important outstanding issues of concern, including the DPRK's human 
rights record, would be part of the normalization process.
    Full implementation of the September 2005 joint statement could 
also provide a way forward for the transformation of overall security 
relations in Northeast Asia. We remain committed to replacing the 1953 
Armistice with a permanent peace arrangement on the Korean Peninsula. 
The United States believes that discussions of a Korean Peninsula peace 
regime could begin among the directly related parties once the DPRK has 
disabled its existing nuclear facilities, has provided a complete and 
correct declaration of all of its nuclear programs, and is on the road 
to complete denuclearization. We can achieve a permanent peace 
arrangement on the Korean Peninsula once the DPRK fully discloses and 
abandons its nuclear weapons programs. We also hope to explore the 
development of a Northeast Asia Peace and Security Mechanism, which 
could help further solidify the cooperative relationships built through 
the six-party process.
                             the road ahead
    While we have made important progress toward the full 
implementation of the September 2005 joint statement, much work remains 
on the road to verifiable denuclearization of the DPRK. We must 
continue to move forward in the six-party process to realize the DPRK's 
abandonment of all fissile material and nuclear weapons in accordance 
with the September 2005 joint statement, as well as its return to the 
Treaty on Non-Proliferation of Nuclear Weapons and to IAEA safeguards. 
We will continue to work closely with our six-party partners as we move 
forward on the tough tasks that lie ahead.

    The Chairman. Well, thank you very much, Mr. Secretary.
    We'll do 7-minute rounds here. That will allow us to come 
back for a second round of questions.
    In terms of your testimony, if you could just elucidate two 
things--you indicated that the third part of that declaration 
related to overall programs, and you said that we have 
considerable evidence that there has been the purchasing of key 
material that could be used for, I assume, enriching uranium. 
And then you said you've identified those same materials being 
used for purposes other than developing HEU. Can you give the 
committee an example, for the record, of what that might be, 
what some of that is?
    Ambassador Hill. The other purposes--the North Koreans 
showed us, essentially, two conventional weapons systems. One 
of them did not work, with the materials that they had.
    The Chairman. The materials you're referring to, are they 
the aluminum tubes?
    Ambassador Hill. Yes; they're aluminum tubes. And so, it is 
our judgment, that those aluminum tubes were not brought into 
the DPRK to be used in the weapons system that did not work. 
It's our judgment that----
    The Chairman. Was it an artillery-type system?
    Ambassador Hill. Yes.
    The Chairman. OK.
    Ambassador Hill. And so, the tubes were transferred to 
another weapon system, and that is where they've been used. And 
in our discussions with the North Koreans, we were able to get 
samples from them to be assured that the aluminum being used in 
that second weapon system for parts was, indeed, the aluminum 
that we had suspected, from the start.
    The Chairman. Right. Now, one other question. Did we 
identify the source of those tubes, or is that classified? The 
source of the tubes that were purchased by----
    Ambassador Hill. Yes; they came from abroad, but the 
country from which they came is classified. I'm sure we can get 
it to you through other channels.
    The Chairman. No; that's all right. And I----
    Ambassador Hill. Yeah.
    The Chairman. Is it the same country from which the tubes 
went to Iraq?
    Ambassador Hill. I--my understanding is, we're--there are 
tubes and there are tubes. But----
    The Chairman. But, was the country the same source? Whether 
they were different tubes or not, were they from the same 
country?
    Ambassador Hill. I believe so, but I would like to check on 
that.
    The Chairman. I think they were. I----
    Ambassador Hill. OK.
    The Chairman. I've probably made my point larger than I 
wanted to, and I don't want to either give you credit or get 
you in trouble, but I personally attribute the change in 
attitude about how to proceed, in North Korea, to some of your 
intervention within the administration. I may be wrong about 
that. Whatever it was, I find it perplexing that we're prepared 
to engage in this kind of discussion, which I applaud. And you 
may recall, the chairman and I, 7 years ago--and I suspect my--
if I'm not mistaken, my friend from Nebraska, as well--but, the 
chairman and I specifically suggested that this kind of 
engagement occur--that America not be disengaged, to begin 
with. But, at any rate, I am, just as a sidebar, perplexed--and 
it's not in your territory--why we have such a radically 
different approach to discussing or talking with Iran. But let 
me get back to another point.
    I have a number of very specific questions I'll get back 
to, but, again, relating to your testimony--for our colleagues 
who are not on the committee, and for Americans who may be 
listening in, the fourth part of the declaration relates, 
essentially, to the questions, ``Who did you give information 
to? Did you proliferate any of your activities on nuclear 
programs to any other nation, or individual, et cetera?'' And I 
think you believe that there is no assistance going on now, 
and, for the future, they promise they will not, but you need 
to know, though, about what may have gone on in the past.
    For the record, explain why that's important to know.
    Ambassador Hill. Well, first of all, we have information, 
that is derived from intelligence sources, on what has gone on. 
And I'm sure, in another forum, we----
    The Chairman. Yeah. I'm not asking you what it is, I just 
want----
    Ambassador Hill. So----
    The Chairman [continuing]. The overall rationale--I 
understand, but I think it's----
    Ambassador Hill. Yeah.
    The Chairman [continuing]. Important, for the record----
    Ambassador Hill. Yeah.
    The Chairman [continuing]. For people to understand why 
this is an important aspect of the declaration.
    Ambassador Hill. Well, I think, from the point of view of 
going forward in a negotiation, if they have been cooperating 
with country X, and then, as we go forward and we make further 
progress, and then we find out, or it becomes publicly known, 
that they have been cooperating with country X, this could 
really affect the course of the negotiations. So, the point is, 
we need to know what they've been up to.
    Now, we're not interested in knowing it for the purpose of 
harming the negotiations or walking out of the negotiations. 
It's simply a matter of transparency. When they have told us 
they have not had any nuclear cooperation with anybody, and 
they've said they don't have it now, and they will not have it 
in the future, if they tell us they have not had any 
cooperation in the past, and then it turns out to be clear that 
they did, this is a problem, as we go forward. We have to have 
some level of trust and some level of transparency.
    And, again, we are not looking to cause problems in the 
negotiations.
    The Chairman. I'm not suggesting you are. I just wanted to 
make sure--I would assume that it also would be a good measure 
of knowing whether or not the intelligence we've collected can 
be confirmed or not, as well.
    But, at any rate, because I have, again, great respect for 
your judgment, I am pleased that you seem to be mildly 
optimistic that this process will be completed and that the 11 
disablement procedures will take place, and that you did make 
reference--and I'll come back to it, if someone doesn't--to how 
long it would take if, in fact, things broke down, for them to 
reverse the procedures and resume the process.
    And in the second round, if they haven't been discussed, I 
will go to a number of questions relating to the funding of 
this process. But, knowing my friend, who's the expert in the 
country on those issues, I suspect he'll raise that. And I hope 
he does.
    But, again, thank you for the clarifications in your 
testimony. Thank you for your testimony.
    And I yield to my colleague Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Secretary Hill, you went to North Korea in December and 
carried a letter from President Bush to Chairman Kim Jong Il. 
Can you describe how you were received, what was your level of 
access, what the chairman's response was to the President's 
letter?
    Ambassador Hill. I was received by my counterpart, and I 
had in-depth discussions with him on the subject of the six-
party process. I also visited Yongbyon and had, really, 
substantial access to what I needed to see to get a firsthand 
look at disablement.
    With respect to the delivering the letter, I asked if I 
could deliver this in person. I was told this was not possible 
and that--they directed me to the Foreign Minister. So, I 
delivered it to the Foreign Minister, prior to my departure.
    I should also mention that I met with the--in protocol 
terms, the No. 3 person in the country--that is, the Vice 
President of the People's Supreme Assembly, Mr. Yan Hyong Sop.
    Senator Lugar. The reason I raised that question at the 
outset is that, as a veteran diplomat, you would have a better 
understanding of the nuances of these relationships, but it 
would seem that, if our communication is sufficient with Kim 
Jong Il and others around him, that the rewards for moving 
ahead are so substantial that, to put it in the vernacular, 
they would want to get on with it. In other words, perhaps they 
simply don't understand what lies ahead. I know you're doing 
the very best you can to describe to whomever, at whatever 
level, but, given the hierarchical nature of the regime, the 
leader himself apparently needs to have some vision of what it 
means to have North Korea liberated from the bondage that's 
self-imposed.
    Now, the problem of getting communication with the leader 
is very important, not only for him, but, likewise, for us. 
You're subjected, constantly, to criticism in this country for, 
``Why haven't the North Koreans got on with it? What's wrong 
with them? December 31 came--and went,'' as if--there are all 
sorts of other alternatives, all of which would bring greater 
sanctions upon North Korea, greater punishment, greater 
difficulty with our allies, all the rest of it. Perhaps there 
is no way for you to know what sort of information reaches the 
leader, or his thought process, but, can you give us any 
illumination at all on what you believe is their forward-
looking on this?
    Ambassador Hill. Well, Mr. Senator, I can give you my 
impression, which is that, first of all, they take copious 
notes of all the meetings. They always have people assiduously 
scribbling in notebooks. So, I have every reason to believe 
that the meetings are conveyed to the leadership in the DPRK in 
rather extensive terms.
    To be sure, Mr. Senator, I have been concerned about 
precisely the points that you've raised. And, to be very frank 
with you, I was hoping that I could deliver that letter 
directly, to make sure that nothing was being lost in 
transmission. They ultimately said it was not going to be 
possible. I waited til the last hour of my 48-hour visit before 
I conveyed it to the Foreign Minister. And they responded, but 
only with a very brief oral statement, so they have not really 
given us a full letter yet.
    I might add, too, that our President, in sending a letter 
to Chairman Kim Jong Il, also sent letters to other heads of 
state of the rest of the six-party participants.
    But, I think--again, I am not in a position to tell the 
North Koreans how to organize their negotiating team, but, I 
must say, I appreciate the importance of the Foreign Ministry, 
having to do with, I guess, where I work. But, perhaps--and 
I've tried to have discussions with them in the past about 
whether they should have a more of an interagency process, 
however that looks in North Korea, but they insist that the 
Foreign Ministry is the ministry charged with this issue, so we 
don't get to see too many others.
    When I was there, though, I was able to see the director 
for the Atomic Energy Ministry, in effect, and had a discussion 
with him. We frequently talk with our DPRK counterparts about 
who's a hard-liner among them, and who's not. They all strike 
me as fairly hard-line, but, I must say, when you talk to the 
Atomic Energy people, you do get a somewhat different 
perspective from the Foreign Ministry.
    Senator Lugar. Well, I thank you for those answers, and 
perhaps you can be helpful to many of us who might attempt 
communication, with any of the above, to try to get forward the 
message of what we are about and what we believe they ought to 
be about. As you say, you can't advise them on their 
negotiating posture, but the importance of movement here is 
obviously important to us, and to the world.
    Ambassador Hill. Yeah.
    Senator Lugar. Let me just ask, in the remaining minute 
that I have, sort of, two questions about our preparation, two 
different sorts of things. Are we prepared, in the budgets that 
have been submitted by the President or by Secretary Gates, to 
do dismantling work? Let's say the opportunity comes to 
dismantle the whole business. I just want to make certain that 
we're prepared, budget-wise, personnel-wise, to do that job.
    The second thing is, How many North Koreans are being 
admitted to the United States? Quite apart from that, are North 
Koreans now moving in greater numbers to South Korea, or even 
in to China, which has rebuffed them before?
    Ambassador Hill. Yes. Well, Mr. Senator, with regard to the 
issue of funding, in looking ahead, we are going to need more 
substantial funding with respect to dismantlement activities, 
as we get past disablement. And so, the administration is 
requesting insertion of language into the FY08 supplemental, or 
any other appropriate legislative vehicle, to provide a waiver 
of the Glenn amendment restrictions that were triggered by 
the--North Korea's 2006 nuclear--test. This Glenn amendment 
waiver is really critical to our ability to implement 
denuclearization. The amendment prohibits the Department of 
Energy from providing any financial assistance to North Korea, 
and a waiver will be necessary to authorize the Department of 
Energy, which would otherwise fund denuclearization activity, 
to use available funds to denuclearize North Korea.
    Currently, for our disablement activity, the State 
Department's Nonproliferation and Disarmament Fund, which has--
notwithstanding authority, is funding these phase-2 activities, 
but these funds are limited and would not be sufficient to fund 
phase 3.
    As for the total amount of phase 3, we do not have an 
overall figure, because a lot of it will depend on some of the 
technical tasks that would need to be performed in Yongbyon. 
But, of course, we would work very closely with all committee 
staffs to try to work on a very realistic number.
    With respect to the refugee situation, the United States 
has expanded its own efforts to protect and assist North Korean 
refugees especially since the passage of the 2004 North Korean 
Human Rights Act. And, consistent with the intent of that act, 
we have resettled some 37 North Korean refugees in the United 
States, to date. We also continue to work with international 
organizations and other countries in the region to help asylum-
seekers seek protection, and this is really an ongoing issue, 
and we work very closely with some of the other neighboring 
countries. This is a very, very important humanitarian issue, 
and I can assure you we'll be very vigilant on this.
    Senator Lugar. Well, thank you for your testimony on 
issues.
    I would just underline the Glenn amendment. This really 
needs to be in the forefront for Senators, because this is an 
issue that's not well understood, but is of the essence if we 
are to move on, in a practical way, to dismantle the Yongbyon 
complex.
    Ambassador Hill. That's right, Senator. Thank you very 
much.
    Senator Lugar [presiding]. Senator Casey.
    Senator Casey. Mr. Secretary, thank you very much. I was 
recalling, as I was looking at your biography, all the work 
you've done, over so many years, in very difficult 
circumstances around the world. We're grateful for that 
service. And, at the risk of commending you too much, I say 
that to a lot of diplomats, so we're not just singling you out, 
but----
    Ambassador Hill. OK. [Laughter.]
    Senator Casey [continuing]. We're grateful for your 
service.
    I wanted to focus on at least two areas, in the limited 
time we have here.
    First of all, I just want to put a headline on this issue, 
with regard to how we describe what's happening here today to 
the American people, because some of this gets technical for a 
lot of people. I think, in terms of a very brief, overly 
simplistic headline, we're talking about disabling, declaring, 
and, hopefully, ultimately, denu- clearization. Are these the 
three major areas?
    Ambassador Hill. Yes. Disabling, declaring, and, 
ultimately, abandoning all of their nuclear ambitions.
    Senator Casey. Specifically, I wanted to direct your 
attention to the second part of the issues, the declaration 
section. You talked about it in your testimony, in your 
statement, in your written material, as well as in the 
questions asked by both Senator Biden and Senator Lugar. But, I 
wanted to highlight and direct your attention to the question 
of plutonium, the question of quantity. I guess, there's some 
dispute about 50 kilograms versus 30 kilograms. The difference 
of 20, which does not seem like a large difference when you 
hear those terms, could provide enough materiel to produce 
several nuclear weapons, so it is important. Can you restate, 
or even amplify, what you've already said with regard to where 
that stands, in terms of their declaration.
    Ambassador Hill. There are various estimates by the 
analytical community of how much plutonium they have been able 
to separate from the fuel rods that they take out of the 
reactor in the various so-called ``campaigns.'' You run the 
reactor for a while, you stop it, you take out the rods, and 
you reprocess those rods into plutonium.
    Now, the estimates range from--30 is within the range, 50 
is also within the range. It depends on how much plutonium they 
were able to get from the rods.
    What, to me, is important is not so much whether it's 30 or 
50; what, to me, is important is that we verify what it is. I 
mean, if it's 50, and it turns out that they actually had 60, 
that's a big problem. If it's 30, and turns out that they had 
35, that's also a big problem. Now, why is it a problem, with 
only 5 kilos, which is some 12 pounds? Because you could 
conceivably make a nuclear weapon from that kind of quantity.
    So, what we have insisted on--and I think we have an 
understanding on this, although, again, I want to emphasize, we 
don't have the declaration yet from them--what we've asked for 
is to get, not only a figure, but also the production records 
that got them to that figure. And the idea is that our own 
technical people can look at these production records, just as 
an accountant--you know, an auditor would look at a business--
you know, ledgers--and to verify that those are correct 
figures. There are also some things we can, you know, look at 
directly in the facilities.
    So, I know there's a lot of concern about, ``Are we at 30? 
Are we at 50?'' I think the real issue is, Can we verify the 
figure?
    Senator Casey. With regard to the question of 
verification--I'll ask you to choose, or say ``both'' with 
regard to this question--there's obviously been a dispute about 
their--North Korea--word on this, over time; but, second, there 
may be--and you could tell us whether or not there's a 
mechanical problem with how you verify, whether the records are 
verifiable, to begin with. Do you see one or the other being 
the impediment, or both?
    Ambassador Hill. Verification----
    Senator Casey. In terms of their own ability to----
    Ambassador Hill. Yeah.
    Senator Casey [continuing]. And their own willingness to be 
up front or truthful about this----
    Ambassador Hill. Yeah.
    Senator Casey [continuing]. But, also, is there a problem 
with the records and how you verify?
    Ambassador Hill. Well, I think--I'm convinced that if we 
have the records, and we have access to the facilities, as we 
do--that we will be able to verify, because this is an activity 
where you really need to be sure what you're talking about. So, 
for example, I know people have--people have said to me, 
``Well, how do you know that they're really disabling?'' And 
how do I know they're really disabling? Because there are 
people like, you know, Kevin Veal, from Los Alamos National 
Laboratory, in New Mexico, is out there, donning a suit every 
day, and going out and seeing how the work is going. People 
like Bill O'Connor, from the Energy Department, and Michael 
Browne and--I mean, these are Americans that we know very well, 
we work with them every day, and so, when they say something is 
disabled, you can take it to the bank, it's disabled.
    Senator Casey. And, finally--I know have limited time left, 
so I won't have time to get into the question about Syria. 
However, I guess, a good bit of your answers to those questions 
and, a lot of the discussion would be classified. But, I want 
to say, just for the record, and we can talk more on this issue 
later, that I think a lot of Americans are very concerned about 
unanswered questions in terms of the involvement of the North 
Koreans and what's been happening in Syria. Anything you can 
provide for the record for this hearing, we'd appreciate that 
you provide that to the committee; obviously, unclassified 
information, and even beyond that, in a classified setting.
    But, I wanted to ask you one final question, and this is 
more of a broad question, and it's beyond the details of what 
we're talking about today, but I think it's important for the 
country. My sense of this--this is only my opinion--but, my 
sense of this is that, when you approach the question of 
diplomacy generally, but, in particular, with regard to the 
challenge that North Korea presented to our country, that, 
frankly, this administration took a long while to get to the 
point we're at now, and that this could have moved a lot 
faster, but certain people were held back. There were 
restrictions--ideological or tactical or political or 
otherwise. And that's my opinion. I'm not going to ask you to 
comment on that, but tell us what you've learned from this 
process--not just the recent success and progress, frankly, but 
what you learned from the last couple of years, about how we 
approach, diplomatically, something this serious and this 
grave, in the context of any administration, as well as any 
lessons learned, things that we could have done differently, or 
different paths we could have taken. What have you learned from 
it? What are some of the mistakes that were made or strategies 
that weren't employed?
    Ambassador Hill. Well, Mr. Senator, it's--I'm a career 
diplomat. I've been doing this for 30 years or so. I am a very 
strong believer in diplomacy, but, at the same time, I also 
understand the fact that it doesn't work everywhere. And so, I 
think you, kind of, have to recognize that, in certain 
situations, you're not going to use this tool of diplomacy to 
get what you want. And so, I don't--I don't want to suggest 
that my profession can do everything, because it cannot.
    I've been involved in successful diplomacy, I've been 
involved in unsuccessful diplomacy. It's pretty depressing when 
things don't work, and so, you do find yourself getting, kind 
of, invested in it. And it is, kind of, necessary, at times, to 
step back from it and say, ``Are we achieving our benchmarks? 
Is this working?'' Because you get into the middle of it, and, 
you know, time will go by. And especially in dealing with the 
North Koreans, where--you know, that's a country with a 
shortages everywhere, except, it seems, in time. And they seem 
to have an abundant supply of time. And so, you know, often, 
with our North Korean interlocutors, you know, we're trying to 
put deadlines there, just to focus the work and see if we can 
get through this.
    You know, diplomacy is always a question of--you're trying 
to get the other guy to do something he doesn't really want to 
do. And how do you get him to do something he doesn't want to 
do? Well, you try to find out why he doesn't want to do it. 
Maybe he doesn't trust you. All right, so you try to deal with 
that. But, you know, sometimes he just says he doesn't trust 
you; he trusts you, and trust has nothing to do with it; he 
just doesn't want to do it. So, you've got to try to get in the 
mind of the person, understand where he's coming from.
    And, again, I've dealt, in a number of situations, a number 
of--in that part of the world--and dealing with the North 
Koreans is difficult, because I think they consider their 
opaqueness to be one of their strengths; that is, they don't, 
kind of, clue you in on their thinking. I mean, I remember, 
many times in Balkan negotiations, you'd have some terrible 
session, and you would say, ``Let's have a break,'' and you'd 
go out and say to your interlocutor in the outer corridor, 
``What was that all about?'' and the interlocutor would shout 
back at you, and you'd go back and forth, and you'd, kind of, 
figure out what the problem was, then you'd continue. It's been 
tougher in this setting.
    I must say, though, that this six-party process has been, 
really, the way to go. And I'm of the belief that--you know, 
there's a country out there called China, there are 1.3 billion 
people there, and we need a way to work with those people, and 
I think the six-party process has helped us do that with China. 
You know, Japan has had problems with China in recent years, 
problems with South Korea; yet, through the six-party process, 
Japan stayed engaged there, and I think it's been very good for 
Japan, very good for our relations with Japan, as well.
    So, I think the diplomatic process--and I know people get 
really tired of hearing diplomats talk about ``process,'' but 
sometimes there is value to process--and I think some of the 
six-party process--putting, even, aside the question of whether 
we get to that essential goal--is helpful, in terms of creating 
this sense of community in region that, I think, ultimately, 
will be the best way to keep countries from going off and doing 
things, like developing nuclear weapons.
    Finally, Mr. Senator, I do want to say that I have 
tremendous support from my Secretary of State, Secretary Condi 
Rice. Yesterday, I spoke with her three times on this issue, 
three different meetings, and we're kicking around ideas for, 
you know, how to go forward. So, I have tremendous support. And 
so, I've learned to try not to be too sensitive to criticism, 
but, you know, sometimes you--I read stuff, where people think 
I'm some kind of free agent. I'm not. You know, I have 
instructions, and, you know, I have a job to do. So, it is 
important to have support, and I've got it, and I think I've 
got it on the way ahead.
    We've got to get this thing done. I think the North Koreans 
want to get it done. My interlocutor has told me he wants to 
get it done. He's told me he wants to get it done in 2008. So, 
we have to see.
    Senator Casey. Thank you very much.
    Senator Lugar. Senator Hagel.
    Senator Hagel. Thank you.
    Ambassador Hill, thank you for your efforts, as well as the 
good work of your colleagues. And please relay our appreciation 
to them.
    You noted, in your testimony--and I don't know if you were 
able to get back and define your point, and I would ask you, if 
you could, to do that now--you said something to the effect 
that you would address why the North Koreans have slowed the 
process. Could you respond to that? Why? What, in your opinion, 
is behind the slowing down of the effort by the North Koreans?
    Ambassador Hill. Yes, Mr. Senator; there have been a couple 
of issues. First, of course, as I suggested, we have some 
health and safety issues. You take these rods, and you put them 
in a pool, and, if there's contamination around the pool, it 
becomes even more contaminated as you put rods into this pool; 
and so, it really makes it very difficult, in your subsequent 
operations, to eventually get rid of these rods. And so, we've 
wanted to make sure that the pool is as clean and safe as 
possible. So, that was one of the first issues that held us up.
    The second issue is, we believe we can discharge these rods 
at about 100 a day, safely, but that's with about three shifts. 
And recently, the North Koreans have gone to one shift. And I 
think--what they have told us is that they are reacting to the 
shipments of heavy fuel oil. And, as I mentioned to you--or, as 
I mentioned in my opening statement, there was 50,000 tons of 
fuel oil for the initial shutdown of the plant. Now, they 
wanted more fuel oil, and we said, ``OK, more fuel oil for more 
denuclearization''--i.e., for disablement. So, we agreed on a 
figure of 950,000 tons for a 1-million-ton total. So, so far, 
they have done 8 out of 11, and moving along on that knife of 
disabling, and they've only received, as of today, about 20 
percent of the fuel oil. So, there is a perception among the 
North Koreans that they have moved faster on disablement than 
we have on fuel oil.
    There was--the North Koreans were very critical of the 
Russians for being, in the North Korean opinion, slow to get 
the fuel oil delivered. In fact, the Russians have worked very 
hard on it. Just because Russia produces oil doesn't mean they 
can deliver the type of fuel oil the North Koreans wanted. In 
fact, the Russians finally had to purchase it on the open 
market--in Singapore, of all places--to get that fuel oil 
there. But, these are complexities having to do with the 
international fuel-oil market, and the North Koreans really 
didn't understand some of that. So, one of the reasons they 
slowed it down was precisely on this point.
    The way this is, kind of, of shaking out, is that the fuel 
oil is very much directed to compensate for the disablement 
activities, and we are definitely more than 20 percent of the 
way on disablement.
    Senator Hagel. So, you feel, once these issues that you 
have just noted are resolved, that that should resume a 
schedule that has been agreed to by all sides.
    Ambassador Hill. Yes; I would hope that we would be able to 
add a couple of more shifts to this process of taking the rods 
out. I must say, we knew, early on, because of the health and 
safety issues, that we weren't going to make the December 31 
deadline, when you just do the math of how many rods you can 
safely pull out of the thing at a rate. And so, we knew we were 
not going to make the December 31--but, I am--you know, as I, 
sort of, line up my worry list, that's not high on my list, 
because I know that's ongoing. My attention is really focused 
on this declaration, where we still have some substantial 
differences.
    Senator Hagel. Do you believe there are any significant 
disagreements within the North Korean Government on how they 
are proceeding with commitments they have made regarding the 
six-party talks? And, more to the point, the future of North 
Korea?
    Ambassador Hill. Well, you know, I know this is a--how to 
put it--a very hierarchical structure in the North Korean 
Government, but that doesn't mean that it doesn't have 
politics. And so, I know that, if you talk to the analytical 
community, people who study decisionmaking in North Korean, 
they identify, you know, a nuclear industry there that's 
certainly containing its enthusiasm for shutting down Yongbyon, 
and very concerned about what its future would be. And, in that 
regard, I was very pleased to hear Chairman Biden refer to work 
with Senator Lugar on various programs, because I think we are 
going to have to address that in a big way.
    So, you've got that whole--a nuclear bureaucracy. You've 
also got a military there. Now, these--their senior officers 
are very senior people, and I think they are looking at the 
decline in--the relative decline of their conventional 
capabilities, and, in some respects, have seen the nuclear--
nuclear weapons as a compensation. So, they are a little 
concerned about how this is all going to work.
    I do believe there are North Koreans who understand that 
that country is following a very narrow path, a path between, 
you know, becoming too isolated, and, therefore, falling way 
behind, and opening up in a way that I think the leadership 
would be very worried about--a rapid opening-up.
    So, I think there are different opinions there. Obviously, 
we would like to have access to some of these opinions, and to 
just try to understand them better, and maybe even have them 
understand us better. And that's why, as I was talking, 
earlier, about the fact that they have a pretty tight-knit 
negotiating team, all from the Foreign Ministry, and that we'd 
like to see some other people. So, we'll see how that works 
out.
    Senator Hagel. Well, my time is up, and I appreciate your 
comments. I just would add one point, in listening to your 
response to the Senator from Pennsylvania about process. I 
think it was Dennis Ross who once said--and maybe he took it 
from Dick Lugar or Joe Biden--but, the reason that process is 
important is because it is a shock absorber. And I think that's 
a good way to describe it, especially why process is important.
    Thank you.
    The Chairman [presiding]. Senator Kerry?
    Senator Kerry. Thank you, Mr. Chairman.
    Mr. Secretary, thanks very much for being here. I don't 
want to go backwards, except to emphasize, number one, how much 
better it would have been if the administration had begun this 
process when it was the best time, which was before Pyongyang 
tested a nuclear weapon, and before it tested the ballistic 
missiles to deliver them, and before it had reportedly 
developed the capacity to build six to eight more bombs. And I 
regret that, for 6 years, those of us who urged this process to 
be engaged in were frustrated.
    Now, you didn't make that decision, it wasn't up to you, 
and I certainly want to tip my hat to you and congratulate you 
for your personal tireless efforts, and for those of your 
dedicated team. I think you've achieved some successes in that 
period of time; though, I might emphasize, it seems like the 
most significant success, the February 2007 agreement, came 
about by virtue of bilateral discussions, which many of us 
strongly urged, from the beginning. While later ratified or 
formally adopted by the six-party members, I think those six 
parties always would have been part of those discussions, 
whether it was in a formal six-party deal or not. The bottom 
line is, this is really between us and them, in the most 
significant way, while there are obviously other players and 
partners important to the process.
    I know you've discussed the question of disablement and 
where we stand with it, so I'm not going to go back to that, 
but I would like to get a sense from you of how long the 
administration, feels it can wait for North Korea to submit its 
declaration on the programs and activities that is required 
under the action plan.
    Ambassador Hill. With regard to the issue of how long we 
can wait, obviously there is some sense of urgency to try to 
get this phase through and get on to the next phase, but we 
need to get a complete declaration, and we can't, sort of, 
pretend that it's complete and, sort of, move on, because we 
will not be able to finish the job unless we have a complete 
and correct declaration. So, we're just going to have to keep 
working that.
    And what I can assure you, Mr. Senator, is, we're working 
very hard on it. I just had a director of our Korea office--a 
young officer named Sung Kim, just spent the last few days in 
North Korea really pushing this. We've been in touch through 
the New York channel, where the North Koreans really pushed 
this. We've been in touch with the Chinese and the South 
Koreans, and we're really working this on a daily basis.
    If we get to the point where----
    Senator Kerry. Have you answered the question, here, of 
what you believe that reluctance or delay is based on?
    Ambassador Hill. Yes; I think they are reluctant to 
acknowledge their activities in certain areas, because they 
have denied them in the past, and, I think, to acknowledge them 
now is to acknowledge that their denials were not entirely 
truthful. So, I think that's one problem.
    I think another problem is that they are worried that we 
will take some of these acknowledgments and start peeling away, 
and will continue to ask more and more questions, and this is a 
country that does not naturally give out information, and so, 
they're afraid to acknowledge something that will just rise to 
many other questions. So, I think they're worried about that.
    As to the question of ``How long?'' Mr. Senator, I can't 
answer that. Obviously, our President will have to make a 
judgment, at a certain point.
    Senator Kerry. Is there a game plan for steps that might be 
taken if it isn't forthcoming?
    Ambassador Hill. I don't think we've come to the point 
where we're looking at scenarios of, you know, ``If we don't 
achieve this . . .,'' we don't want those scenarios to become 
self-fulfilling prophecies.'' We feel that we----
    Senator Kerry. Is there any sense in the administration 
that they're just trying to wait you guys out----
    Ambassador Hill. There are----
    Senator Kerry [continuing]. Until we get another 
administration?
    Ambassador Hill. There are a number of people who believe 
that. I'm not one of them. I think they have an incentive to 
try to get through this. I think they have an incentive to try 
to get this done in 2008, and they've told us so. But----
    Senator Kerry. What's the current----
    Ambassador Hill [continuing]. These are fundamental issues 
for them. They're looking at a program that's of national 
importance to them, and to give up these nuclear weapons is 
obviously a big decision for them.
    Senator Kerry. What's the current Chinese position with 
respect to how forthcoming North Korea has been on the issue of 
uranium enrichment----
    Ambassador Hill. Well, I----
    Senator Kerry [continuing]. Or the enriched uranium 
program?
    Ambassador Hill. I mean, they have begun to show us how 
some equipment is currently being used in nonnuclear programs. 
That is a good start, to be sure. But, we need to really get 
the disposition of other key pieces of equipment, and we need 
some acknowledgment of what they've been up to, and, if they 
stopped it, when did they stop it? Again, we're not looking to 
pull a thread and to pull this whole thing apart, but we do 
need some transparency as we go forward.
    Senator Kerry. Do other nations in the six-party talks 
accept the U.S. position, with respect to the active program of 
enrichment?
    Ambassador Hill. I think other nations accept our 
conviction that North Korea did, indeed--or, we have a high 
confidence that they did, indeed, have a uranium enrichment--
or, were pursuing a uranium enrichment program. I think other 
nations probably, in the six parties, do not concur with our 
current judgment of having a moderate level of confidence 
there, that they are continuing to pursue capabilities in 
uranium enrichment. So, there is a difference, in terms of 
their belief in the North Korean ongoing efforts.
    Senator Kerry. And can you share with this committee, at 
this session, how the administration intends to verify the 
North Korean nuclear declaration?
    Ambassador Hill. Well, we will verify it through different 
elements. For example, we were talking, earlier, that they will 
give us a figure for the separated plutonium. This is probably 
the heart and soul of the declaration. That's the amount of 
plutonium they have already harvested from this nuclear 
facility, and the amount of plutonium they would need to 
abandon, pursuant to a denuclearization agreement. And, as I 
explained earlier, we really need to have a verification means, 
so that whatever figure they give us, whether it sounds high or 
sounds low, is verifiable. Now----
    Senator Kerry. But, does that mean that verification 
procedure has, in fact, been agreed to, at this point?
    Ambassador Hill. We have--we have had extensive discussions 
with the North Koreans on this point, and we have agreed that 
there should be--when they produce----
    Senator Kerry. We've agreed to agree?
    Ambassador Hill. No, no, no. More than that, Senator.
    Senator Kerry. You actually have a procedure.
    Ambassador Hill. We have a procedure that, when they give 
us the figure, they will give us the production records, so 
that, in going through the production records, just as an 
auditor would go through a business ledger, we would be able to 
increase our confidence that the figure they give us is 
actually correct. We have some other procedures connected with 
our access to the physical----
    Senator Kerry. Are the production----
    Ambassador Hill [continuing]. Facilities, as well.
    Senator Kerry [continuing]. Records, themselves, 
verifiable? Is that acceptable----
    Ambassador Hill. Again, we have to----
    Senator Kerry [continuing]. In this case?
    Ambassador Hill [continuing]. See what the--again, we have 
to see what the production records look like. But, what we have 
agreed is that whatever figure they give us must be verifiable.
    Senator Kerry. The incoming President--of South Korea, 
President Lee has indicated that he is going to link major aid 
economic programs with North Korean progress on the nuclear 
front. How, if at all, does that affect your approach and/or 
the six-party approach? Does that have an impact?
    Ambassador Hill. It's to be determined what the impact will 
be. Certainly, we've worked very well with the South Koreans, 
throughout, in the six-party process. I think what the 
President-elect has in mind is to link the direct North-South 
assistance that South Korea provides more to the six-party 
process, and we have always welcomed more coordination between 
those two, and we would expect to see more, in the future. I 
think what will be very interesting is how the North Koreans 
regard this.
    Senator Kerry. Is it your interpretation through the many, 
many, many interventions you've had--and we appreciate, again, 
your tenacity and patience in this process--do you believe 
there is a sincerity in their willingness to literally give up 
their nuclear program, or is there still a resistance, 
particularly within the military, to that, and a struggle going 
on internally regarding it?
    Ambassador Hill. Certainly, my impression--and I can only 
convey to you an impression--is that there are many people 
there who don't agree with giving up their nuclear ambitions, 
but there are some who do agree. And I think our task is to 
make it very clear that their future is much better if they 
give it up. We could not do that in one fell swoop, which is 
why we have embarked on this step-by-step process, and I think 
the closer we get, the more chances we have that they will give 
up their ambitions and understand that what we have on the 
table is more important to their security than harboring this 
fissile material.
    Senator Kerry. In that regard, do you believe that there 
are more cards to be played here on their part, in terms of 
what demands may be made, or do you think most of those cards 
are on the table?
    Ambassador Hill. I think you can never rule out surprises 
with North Korean negotiating positions, but I think what they 
will be asking is probably already known to us, but we could 
probably expect some other things.
    One of the reasons we have tried to address--to do more 
exchanges, to have academics exchanges--and also, while we have 
supported the New York Philharmonic's efforts, is to address 
cultural issues and to show that we are prepared to--this is, 
kind of, a downpayment on our preparedness to work with them, 
but they need to understand, at the end of the day, we need 
denuclearization. We cannot have a normal relationship with 
that country if it keeps its nuclear ambitions.
    Senator Kerry. Thank you. We appreciate your 
professionalism, Mr. Secretary. Thank you again for your 
efforts.
    Ambassador Hill. Thank you.
    Senator Kerry. Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    And, Ambassador, I echo the comments of my colleagues here 
in my appreciation for all the work that you have done, 
personally--the doggedness, the persistence that, I think, has 
led to a relatively optimistic report at this committee 
hearing, this morning. I appreciate it.
    You spoke to how, throughout the six-party talks, the 
relationships have improved. For instance, you specifically 
cited China, that, as a consequence of the six-party talks, our 
relationships are better, and China is certainly within the 
region.
    I want to ask specifically about Japan. You've mentioned 
your continued efforts to push to find resolve with the 
Japanese on the issue of the abductions, which we know are so 
significant. In speaking with some from Japan who are very, 
very concerned about the steps that the United States may take 
in removing North Korea from the state-sponsors of terrorism 
list, just the messaging that is going on, they're saying, 
``Our No. 1 priority has not been resolved. The United States--
we are your No. 1 ally and you're, kind of, abandoning us on 
this issue.'' What kind of--we appreciate the tensions that are 
there, so I won't ask what kind of tensions exist, but how can 
we work through the steps that you have outlined in improving 
those relationships with North Korea, while not, at the same 
time, jeopardizing that very strong relationship that we have 
had for decades with Japan?
    Ambassador Hill. Well, thank you, Senator, for asking me 
that, because our relationship with Japan is so important to 
us, not just with respect to this six-party agreement, but all 
over the world. We have a very, very special alliance 
relationship with the Japanese. And there is no question that 
this six-party process is a difficult one for the Japanese, 
because it's a process very much geared toward 
denuclearization. And what the Japanese are also concerned 
about is, they are very concerned about missile proliferation, 
because they are very much under the shadow of North Korean 
missile programs, and they're also very much concerned about 
this issue of the abductees.
    There are--back in October 2002, the North Koreans provided 
some information. It was helpful, but not enough. And I think 
the Japanese deserve to hear more and to get closure, to 
understand what happened to their loved ones. And so, what I 
have assured the Japanese is, I raise this issue whenever I 
talk to the North Koreans. I want to make it very clear to the 
North Koreans that this is an issue of central----
    Senator Murkowski. What kind of----
    Ambassador Hill [continuing]. Importance to us.
    Senator Murkowski [continuing]. Response do you get back 
from them on----
    Ambassador Hill. Well, first of all, they have begun to 
accept that this is a fundamentally important issue for us, and 
that we are not going to leave our ally in the lurch, or 
somehow forget about this problem. So, they have come to 
understand that. But, they have also understood my point, that 
if North Korea is going to have a successful future, it needs 
to have a productive relationship with Japan. And the fact that 
it does not, now, is very much harmful to North Korea. So, I 
have tried to acquaint them with a sort of enlightened self- 
interest, that it is in their interest to normalize--to figure 
out a way through this.
    I have gone through the cases of who were abducted during 
this period of, you know, late seventies, early eighties. In 
fact, I even keep, in my wallet, the list of these people and--
so that in the event that the North Koreans would mention a 
specific person, would have it right on hand.
    I think it's been very important to stay in very close 
contact with the Japanese. I never make a trip to that region 
without first going to Tokyo and working with the Japanese. I 
think Prime Minister Fukuda said it best when he told our 
President, when he visited here in Washington, ``We have three 
concerns. We have these abduction concerns, missile concerns, 
nuclear concerns. And we need to work on all three.'' Our 
President said, ``Absolutely,'' and that we will not forget 
these abductees.
    Now, I know there are efforts to draw a strict and tight 
linkage between the abductee issue and the U.S. law with 
respect to state sponsors of terrorism, and we understand the 
Japanese concerns on this. We have made very clear that we will 
not lift, until we have really had very close consultations 
with the Japanese government on this, and until the North 
Koreans move on some of the issues of--on denuclearization.
    I'm not going to go so far as to make these hard linkages. 
I don't think it's in our country's interests, or Japan's 
interests, or anyone's interest to make these hard linkages, in 
advance. But, what we have made very clear is, we will work 
very closely with Japan, we will not have surprises between us, 
and we will work in a way that we will come out of this with 
all relationships strengthened. We have no interest in 
strengthening a relationship with North Korea at the expense of 
our relationship with Japan. None at all.
    Senator Murkowski. OK. Let me ask you, quickly, then--we 
recognize that you certainly have been working this issue for 
years now. But with North Korea, there are officials who have 
been working the six-party talks, and just the U.S. 
relationship for years, decades. We're going to be seeing a new 
administration here next year, and officials on our side have 
that tendency to turn over. What does this portend for the 
discussions as we move forward? How do we provide for the level 
of continuity that, I think, you have certainly put in place, 
and to ensure that we continue to see some positive progress?
    Ambassador Hill. Well, first of all, I would hope that we 
can get this done so that a new administration would not have 
this problem----
    Senator Murkowski. I agree.
    Ambassador Hill [continuing]. Put in their lap. And my 
sense is, among both our parties, there is a strong desire that 
we get this done with the current administration. So, I'm 
guided by that.
    Senator Murkowski. How much of it, though, is the personal 
relationships that have been developed? It's--you know, that 
seems to have been a key in many of the advances that we have 
seen.
    Ambassador Hill. Well, you know, there's no real secret to 
it. You just try to talk less than 50 percent of the time, and 
try to understand the other person's point of view, and try to 
put together something that works for both of you. And so, you 
know, I think there are a lot of people who can figure that 
out.
    Senator Murkowski. I hope you're right. Thanks.
    Thank you, Mr. Chairman.
    The Chairman. Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Tell us about North Korean support for the Syrian nuclear 
weapons program.
    Ambassador Hill. Mr. Senator, a lot of the details of what 
we know about North Korea's cooperation abroad are derived 
through intelligence sources, so, in the context of this open 
hearing, I don't think I can give a lot of details on that. 
What I can tell you, though, is the focus of my work has been 
to make sure that, as we go forward with a declaration--and a 
declaration is a key element of what we need to get, in this 
phase 2, in order to get in to the next phase--is to make sure 
the North Koreans are very open and transparent with us on what 
they have been doing abroad. Now, they have said they don't 
have any cooperation with other countries--nuclear cooperation 
with any countries now, and they won't in the future, but we 
need them to tell us what they've been doing in the past.
    Now, I know ``open and transparent'' and ``North Korea'' 
don't always go in the same sentence, so we need to work with 
them, against some of their instincts, to do this, so that we 
do not--as we go forward, that we do not have surprises.
    Senator Bill Nelson. Well, is there consensus in the 
intelligence community about the sophistication of North 
Korea's nuclear program?
    Ambassador Hill. Well, I think--again, I don't want to 
speak for the intelligence community, but, certainly, I think 
there is a high regard for some North Korean technical 
capabilities, certainly with respect to the plutonium 
production. We've seen it, we know that they have actually 
produced weapons-grade plutonium. With regard to uranium 
enrichment, we know that they have been engaging in purchases 
that are very consistent with a uranium enrichment program. We 
know less about that, because we haven't seen as much, but that 
is another area, where we need for them to make a complete and 
correct declaration.
    Senator Bill Nelson. Do we have evidence that North Korea 
received technology from Pakistan?
    Ambassador Hill. I would say that it is widely known that 
we believe they did, indeed, receive technical assistance and 
actual equipment from the A.Q. Khan network in Pakistan.
    Senator Bill Nelson. And how does this evidence point to 
the current enrichment program in North Korea?
    Ambassador Hill. Well, again, without getting into 
intelligence details, I think some of the equipment that they 
purchased from Pakistan--for example, in President Musharraf's 
book, he refers to the fact that North Korea purchased some 
centrifuges, and the purpose of these centrifuges would be to 
reverse-engineer them. They purchased less than two dozen 
centrifuges, and the purpose would be to replicate them and to 
build some 2- or 3,000 centrifuges. So, certainly, in order to 
get the basic design of the centrifuge, they had to get it from 
this A.Q. Khan network. So, our very strong belief is that they 
were successful in getting that.
    Senator Bill Nelson. Would you follow up?--I'm a member of 
the Intelligence Committee, and I would like to follow up on 
these matters in an appropriate setting.
    And I want to thank you. I think you, singularly, have been 
most effective in representing our country, in bringing us this 
far with North Korea. And this country and this committee owes 
you a big thank you for your personal service to our country.
    Now, share with us where we are now. How is this different 
from the situation, back in 2002?
    Ambassador Hill. Right. Well, Mr. Senator, we're in the 
middle, sort of in the middle, in a way, but we are trying to 
get through something called phase 2, where the North Koreans 
needed to do two things. In addition to shutting down the 
reactor, which they did in phase 1, and which they had done, up 
until 2002, they have now taken steps to disable. Now, they 
have never--they never disabled the reactor before. They never 
did that, up until 2002. So, this is a new thing.
    Now, what does ``disabling'' mean? We have a series of 
actions, some 11 different actions, the sum total of which is 
to make, not only that the reactor doesn't work, but that it 
would be hard to put back into operation. Now, opinions vary 
about how long that would be, but our best guess is that it 
would be difficult and very expensive to put the operation 
back, inside of a year, and we would hope that the longer it 
stays disabled and without maintenance, the longer that period 
will be. So, disabling is something that was not done before.
    The problem we have is that, from 2002 until this past 
summer, they were actually producing plutonium. If we had not 
shut it down this summer, they would have continued to produce 
plutonium. Now, I've heard people say, ``Oh, but the reactor 
was on its last legs.'' Frankly, I think, in a lot of 
countries, you can see a lot of pieces of machinery that 
Americans would conclude is on its last legs, and somehow that 
machinery still works, and I think North Korea is no exception 
to that. So, I don't think there's evidence to suggest this 
thing was on its last legs. It was operating until July 15, 
when we shut it down.
    So, the problem has been, between 2002 and July 15, they 
were producing plutonium; therefore, the plutonium problem, the 
amount of separated plutonium, has increased. In short, that 
aspect of the problem has gotten--has gotten worse.
    But, that does not suggest that there was no plutonium 
before. So, the same processes that we're bringing to bear to 
try to get the North Koreans to give up this plutonium, whether 
they have 50, 30, whatever, kilos, those same processes have 
to--diplomatic processes have to be followed through, and 
that's what we're trying to do. And that's what we hope, that, 
in this next phase, phase 3, we can get them to give up their 
plutonium.
    Senator Bill Nelson. Well, congratulations on the success, 
thus far. Now, you said, earlier today, that what has slowed 
their disabling of the Yongbyon reactor is that the six-party 
members are slow in the heavy fuel-oil shipments. What can we 
do to speed up those shipments?
    Ambassador Hill. Well, I think, first of all, the North 
Koreans need to understand that it's not easy to ship heavy 
fuel oil to North Korea. I believe that people in the 
administration, also working with the Congress to get the money 
necessary--frankly, I'm very proud of the people who have done 
this--and our Agency for International Development and in the 
various appropriations committees that have been able to get 
the funding; I think we've done OK.
    So, we've delivered some--we have another shipment, which 
we're beginning to get going on, this week. The Russians just 
delivered theirs. The Russians had a lot of problems, just 
technical, bureaucratic issues, and they ended up having to 
make some purchases from Singapore. I think we have done OK.
    The North Koreans have a limited capacity, so one of the 
problems is, you can't put more than 50,000 tons at a time into 
their port facilities. That's been a problem. We had to work 
out a fuel-oil equivalence that is--so that not all of this 
950,000 tons comes in fuel oil, but comes in some equivalent. 
In effect, we're using fuel oil as a kind of unit currency. So, 
these things have taken time.
    So, I don't think anyone's necessarily to blame for this. 
Obviously, we would like to speed up the shipments, and we're 
doing the best we can on that. And we'd like the North Koreans 
to finish the job in the disabling. And they've got 8 of 10, 
and they're working on number 9. Number 9, by the way, is 
actually removing the fuel rods from the reactor, a very 
important phase. So, I think that part is okay.
    The real problem, the thing that does keep me awake right 
now, is the issue of getting a full declaration, because, until 
we get that, we're not going on to the next task of figuring 
out what we can put on the table to get them to give up the 
separated plutonium.
    Senator Bill Nelson. Thank you.
    The Chairman. Mr. Secretary, what about South Korea and its 
new government? Does Seoul continue to link aid to progress in 
denuclearization? Do you expect any changes in this linkage 
with the new government?
    Ambassador Hill. I'm reluctant to speak for the new 
government, but I'll give you my impressions, based on some of 
their comments of their transition teams. I think, first of 
all, they have made it very clear that they want the U.S. 
relationship to be in the forefront of their foreign policy. 
And so, I think they would like to really work more closely 
with us on all of these issues.
    I must say, we've worked very closely on the six-party 
process. I'm in almost daily contact with my counterpart. My 
previous counterpart went on to be Foreign Minister there. So, 
I think that's an index of how seriously the current government 
takes the six-party process. And I have every reason to believe 
the next government will do the same.
    Where the differences come is on this North-South issue. 
And here, I think, first of all, Americans need to be very 
sensitive about why there are these North-South processes. This 
is a peninsula that was split up in the middle of the 20th 
century, one of the worst events that took place in the 20th 
century. It was done, not through any fault of the Korean 
people, it was done because of events that happened outside of 
the Korean Peninsula. It's a great tragedy.
    Mr. Senator, I don't know if you've ever had the occasion 
to see some of these family unification meetings. It is simply 
extraordinary to see people who have been so torn apart, 
families torn apart, and they have just a few fleeting moments 
together again.
    So, we have to be very sensitive about the great 
emotionalism that many Koreans attach to these North-South--to 
this North-South process. So, while we want to have a much 
better coordination between the North-South process and the 
six-party process, we won't want to put ourselves in the 
position of demanding the South Koreans do less on this. We 
want to really make sure they are in the lead on this, and that 
we have good cooperation and coordination.
    I think we've achieved that with the current government, 
and I know, based on talking to representatives of the next 
government, who have told us they want to put a much tougher 
marker out there, in terms of reciprocity from the North 
Koreans, but I believe we will have the kind of close 
coordination we need to succeed in the six-party process.
    The Chairman. The last question I have--you answered 
questions about obtaining the funds you need for fiscal year 
2008, I'm told, when I was out the room--but, if North Korea 
makes a complete declaration of its nuclear programs and you 
get into phase-3 implementation, how soon does the 
Nonproliferation Disarmament Fund money run out?
    Ambassador Hill. My understanding--and I think I need to 
get your staff a more comprehensive answer to that important 
question--my understanding is that the funding we have for 
disablement is enough for disablement, but not much more, and 
that we probably would need to work very quickly in the next 
phase. Now, mind you, getting to the next phase and actually 
funding for dismantlement will be a very good-news story, 
because----
    The Chairman. I agree.
    Ambassador Hill [continuing]. It means things are moving. 
And so, I believe we--in the event that we get this--we move to 
this next stage and we get this early agreement on this, I 
think we would have to move very quickly, within a month or 
two.
    The Chairman. My hope is, that occurs, to state the 
obvious; and I recall that when they asked John McCain about 
prediction, he said, ``I'm superstitious, I don't like to 
predict.'' But, it would be useful for us to get a sense of 
what that cost would be----
    Ambassador Hill. OK.
    The Chairman [continuing]. Assuming that we get to that 
stage. And I agree with you, it would be such a good-news 
piece, that I don't think we'll have a problem here. But, I 
think, just in terms of our thinking, it would be useful to be 
able to capture just roughly what we're talking about.
    Ambassador Hill. OK, Senator, I'll make sure----
    The Chairman. OK?
    Ambassador Hill [continuing]. That, as we talk to your 
staff, we will do that, we'll get up to them very quickly with 
something.
    The Chairman. Please.


    [The submitted written information from Ambassador Hill 
follows:]

    The Department of State's Nonproliferation and Disarmament Fund 
(NDF), which has ``notwithstanding'' authority, is currently funding 
Phase II activities (disablement). However, NDF funds are limited and 
are not expected to be sufficient to cover Phase III activities 
(dismantlement). The administration is currently developing estimates 
of the cost of additional USG activities in support of North Korea's 
denuclearization, including further disablement, dismantlement, and 
addressing North Korea's fissile material pursuant to North Korea's 
commitments in the September 2005 Joint Statement. We will continue to 
consult closely with the committee and with Congress as we refine these 
estimates to ensure sufficient funds for the Third Phase of 
implementation of the Joint Statement.
    We urgently require a legislative provision authorizing the 
President to waive the Glenn amendment sanctions on assistance to North 
Korea (imposed as a result of North Korea's 2006 nuclear test). A 
waiver of these sanctions is necessary to permit the Department of 
Energy to utilize its funds to provide assistance to North Korea for 
denuclearization activities.
    We appreciate the committee's continued support for the authorities 
and funding necessary to assist in the critical work of DPRK 
denuclearization through the six-party process.

    The Chairman. Senator Lugar.
    Senator Lugar. Ambassador, this goes beyond the scope of 
this hearing, but you've commended, I think correctly, the 
importance of the six-power negotiations, the fact that the six 
countries come together. And, in previous hearings you've 
described some of the remarkable benefits from discussions 
we've had, not necessarily on the side with the Chinese or with 
South Koreans or with the Japanese, but how our own diplomacy 
became extraordinarily more active because of the six-power 
talks, at your level and on down the ranks within our State 
Department.
    Can you give us any vision with regard to the continuation 
of the six-party process? In other words, the formation of the 
six-party process was to deal principally with possibilities in 
North Korea, but it occurs, as you and others have described 
those procedures, that there are many benefits of simply this 
group coming together to talk about other issues. Can you 
forecast that?
    Ambassador Hill. Yes.
    Senator Lugar. Will the six-party talks, or association, 
survive that kind of disappointment or difficulty?
    Ambassador Hill. Well, I think the process will, I'm not 
sure I will. But----
    [Laughter.]
    Ambassador Hill [continuing]. Let me mention that, in the 
third phase what we would want to do, in order to get the North 
Koreans to fulfill their commitment and abandon their nuclear 
ambitions, is to put several things on the table. One of them 
is a normalization process with the United States. Another is 
the Korean peace process. And third would be the issue of how 
to get North Korea integrated into international financial 
institutions, et cetera. The fourth, and very importantly, has 
to do with construction of this, sort of, Northeast Asia Peace 
and Security Mechanism. Now, we have already anticipated this 
in the six-party process now, so there is a working group 
dealing with this Northeast Asia Peace and Security Mechanism, 
and it's chaired by the Russians. So, this week, starting 
yesterday, we had a delegation come here from Moscow, led by 
Ambassador Rakhmanin, who had extensive meetings yesterday in 
the State Department. He met with me. I think, this afternoon 
he will be meeting with Deputy Secretary Negroponte. He also 
had a brief meeting with Secretary Rice, as well, to stress to 
him the importance that we attach to precisely the point you've 
raised, the point of seeing whether we can take the six-party 
process and do something with it in the future.
    I also believe that this is an activity where the United 
States and Russia, because we have such a wealth of experience 
derived from the OSCE and other of these sort of European 
integration things, that we, together, our two countries, ought 
to be able to work together on this, we ought to be able to 
really help make sure this thing gets launched.
    Now, one of the issues we've faced--oh, and I should also 
mention that Ambassador Rakhmanin also took time yesterday, not 
only to meet with people in the State Department and the 
National Security Council staff, but also--well, he will meet 
with Defense Department, too, but he goes outside the 
government to deal with some of our NGOs and to meet with--I 
think he had a speaking engagement at the U.S. Institute of 
Peace, and he met with a number of people from outside the 
government, because a lot of our NGOs have ideas of how we can 
do this.
    So, Mr. Senator, we have in mind a process that would start 
with the six, but we want to have a kind of open architecture, 
because there are a lot of countries that have a real interest 
in Northeast Asia, not necessarily in Northeast Asia, but have 
a real interest--if you look at the trade patterns that a 
country like Australia has, or New Zealand, they have a lot of 
interest in China and how things go with China and Japan. And 
so, we would look to have an open architecture that would 
eventually bring in more than the six.
    You know, in some ways, the urgent often crowds out the 
important, so we're often dealing with the sort of day-to-day 
urgent issues. But, I think the most important aspect of what 
we might be able to do is to create this broader Northeast Asia 
Peace and Security Mechanism.
    Senator Lugar. Well, I really appreciate, very much, that 
testimony; likewise, really, the news about the Russian 
Ambassador coming to Washington. This is news, I think, to most 
of us, and a very important development.
    Ambassador Hill. Thanks.
    Senator Lugar. So, thank you very much for being so 
forthcoming.
    Ambassador Hill. Mr. Senator, I'll see him, I think, soon 
after this testimony, and what I might suggest, if he hasn't 
already done, is to be in touch with your staff, and maybe give 
you a briefing of how the Russians are seeing this.
    I also have a very great interest in having us work 
together with the Russians on this.
    Senator Lugar. Yes.
    Ambassador Hill. I mean, we've got some tough issues out 
there in the world, and this one, we ought to be able to do 
something on together.
    Senator Lugar. This is good news.
    Ambassador Hill. Yes.
    Senator Lugar. Thank you, sir.
    The Chairman. Well, thank you, Mr. Secretary. As I said, 
you're doing a great job. We wish you the best of luck. And I, 
like you, am optimistic you'll be able to finish this deal, and 
it will be a very, very good thing.
    And, I don't want to embarrass you, but I hope other parts 
of 
the administration are looking at how to proceed here, and 
maybe applying similar methods other places in the world would 
also be useful.
    I thank you very, very much for your being here.
    And we are adjourned.


    [Whereupon, at 11:30 a.m., the hearing was adjourned.]





                            A P P E N D I X

                              ----------                              


 Responses to Additional Questions Submitted for the Record by Members 
                            of the Committee

    Responses of Assistant Secretary Christopher Hill to Questions 
                 Submitted by Senator Joseph Biden, Jr.

               funding implementation of the nuclear deal
    Question. Please keep the committee fully and currently informed 
regarding your funding needs for implementation and verification of 
North Korea's nuclear disablement and dismantlement commitments during 
fiscal years 2008-09. This information should include, inter alia, the 
likely costs, as they are developed, of: Dismantlement at Yongbyon; 
canning and removing North Korea's nuclear reactor fuel or spent fuel; 
removal of North Korea's plutonium; disablement or dismantlement costs 
at other sites, once North Korea makes a complete declaration of its 
nuclear programs; and programs to assist North Korean nuclear workers.

    Answer. The Department of State's Nonproliferation and Disarmament 
Fund (NDF), which has ``notwithstanding'' authority, is currently 
funding phase 2 activities (disablement). However, NDF funds are 
limited and are not expected to be sufficient to cover phase 3 
activities (dismantlement). The administration is currently developing 
estimates of the cost of additional USG activities in support of North 
Korea's denuclearization, including further disablement, dismantlement, 
and addressing North Korea's fissile material pursuant to North Korea's 
commitments in the September 2005 joint statement. We will continue to 
consult closely with the committee and with Congress as we refine these 
estimates to ensure sufficient funds for the third phase of 
implementation of the joint statement.
    We urgently require a legislative provision authorizing the 
President to waive the Glenn amendment sanctions on assistance to North 
Korea (imposed as a result of North Korea's 2006 nuclear test). A 
waiver of these sanctions is necessary to permit the Department of 
Energy to utilize its funds to provide assistance to North Korea for 
denuclearization activities.
    We appreciate the committee's continued support for the authorities 
and funding necessary to assist in the critical work of DPRK 
denuclearization through the six-party process.
                          human rights issues
    Question. North Korea has a very poor human rights record. In an 
effort to promote a dialog on human rights and mechanisms to promote 
greater North Korean adherence to international norms of human rights, 
the Congress mandated the creation of a Special Envoy for North Korean 
Human Rights in the North Korea Human Rights Act. The President 
appointed Jay Lefkowitz to the post.
    Furthermore, section 106 of the North Korea Human Rights Act 
expresses the sense of the Congress that the United States should 
explore the possibility of a regional human rights dialog with North 
Korea that is modeled on the Helsinki Process, engaging all countries 
in a common commitment to respect human rights and fundamental 
freedoms.

  <bullet> Since his appointment, what steps have been taken by Mr. 
        Lefkowitz to visit North Korea to begin a dialog on human 
        rights?

    Answer. Special Envoy Lefkowitz planned two trips to the Kaesong 
Industrial Complex in North Korea in 2006, both of which we canceled 
following North Korea's ballistic missile and nuclear tests in July and 
October respectively. Special Envoy Lefkowitz planned to raise human 
rights issues.
    Under the February 13, 2007, Six-Party Initial Actions agreement, 
the U.S. and DPRK agreed to start bilateral talks aimed at resolving 
pending bilateral issues and moving toward full diplomatic relations. 
The United States has made clear that dialog on the DPRK's human rights 
record would be part of any normalization process.

    Question. Will North Korea permit Mr. Lefkowitz to come to 
Pyongyang or some other part of North Korea? If not, can he hold a 
dialog on human rights issues with DPRK officials in the United States 
or in a third country?

    Answer. In 2006, the South Korean Government began the process of 
arranging the aforementioned cancelled visits by Special Envoy 
Lefkowitz to the Kaesong Industrial Complex in North Korea. (Kaesong is 
a joint project involving North Korea and South Korea.) North Korea 
continues to deny visitation requests from Vitit Muntarbhorn, U.N. 
Special Rapporteur on the Situation of Human Rights in the Democratic 
People's Republic of Korea. The United States would be open to 
conducting a dialog on human rights with the North Korean Government 
under appropriate circumstances. Our primary concern is the 
effectiveness and relevance of any dialog, not its geographic location.

    Question. What coordination mechanism exists to ensure that efforts 
by the Special Envoy are fully consistent with efforts by the State 
Department to reach success at the six-party talks?

    Answer. Within the State Department, the Special Envoy's office 
consults with the Secretary, the Under Secretary for Democracy and 
Global Affairs, the Bureau of East Asian and Pacific Affairs, and other 
relevant bureaus and offices on most communications and planning 
issues. Relevant offices at the National Security Council also perform 
coordination and oversight activities.

    Question. Has the United States made any efforts to explore the 
applicability of the Helsinki model to the Korean Peninsula? If so, 
what have you discovered?

    Answer. Such an approach is under review at present. A number of 
NGOs and former senior officials have called for devising a negotiation 
framework similar to that established by the Helsinki Final Act and the 
Organization for Security and Cooperation in Europe that grew out of 
the Helsinki accords. Special Envoy Lefkowitz and other senior 
officials have engaged in numerous discussions about this approach, and 
how it might apply to Northeast Asia.
    The February 13, 2007, Six-Party Initial Actions agreement formed a 
working group on a Northeast Asia Peace and Security Mechanism, which 
is exploring avenues for increase security cooperation in Northeast 
Asia.
                                 ______
                                 

    Responses of Assistant Secretary Christopher Hill to Questions 
               Submitted by Senator Robert P. Casey, Jr.

    Question. One of the key achievements of the six-party talks has 
been the complete shutdown and ongoing disablement of the nuclear 
reactor and related facilities at the Yongbyon site in a verifiable 
manner. However, some critics of the six-party talks have contended 
that this achievement is hollow because the Yongbyon facilities were no 
longer of much use. Former U.N. Ambassador John Bolton wrote in a Wall 
Street Journal op-ed last August: ``The Yongbyon reactor is shuttered, 
but that reactor was not frequently operational in the recent past, and 
may well be at the end of, or even beyond, its useful life. The return 
of International Atomic Energy Agency inspectors to Yongbyon provides 
North Korea with a new patina of respectability, despite the near 
certainty that significant nuclear activity is happening anywhere but 
Yongbyon.''

  <bullet> How significant is the achievement of shutting down and 
        sealing the nuclear reactor and other facilities at Yongbyon? 
        How do you address critics who contend that Yongbyon was near 
        the end of its operational life and so its permanent 
        disablement is a hollow win for the United States and our 
        allies?
  <bullet> Does the United States have any credible reason to believe 
        that North Korea is engaged in the reprocessing of weapons 
        grade plutonium at any site apart from Yongbyon?

    Answer. The shutting down and sealing of the three core facilities 
at Yongbyon, as well as the uncompleted 50-MW(e) and 200-MW(e) reactors 
at Yongbyon and Taechon, respectively, was a significant step because 
it halted the DPRK's production of fissile material at the site; that 
is, it is no longer producing weapons-grade materials that could be 
used in nuclear weapons or nuclear explosive devices. More 
significantly, under the October 3, 2007, Second-Phase Actions for the 
Implementation of the Joint Statement, the DPRK is now disabling the 
three core facilities at Yongbyon--the 5-MW(e) experimental reactor, 
the radiochemical laboratory (reprocessing plant), and the fresh fuel 
fabrication plant. The disablement actions mark the first time that the 
DPRK has taken physical steps to disable any of its facilities and will 
make it difficult for the DPRK to reconstitute its plutonium production 
capability at Yongbyon. Upon completion, the specific disablement 
actions should ensure that the DPRK would have to expend significant 
effort and time (upward of 12 months) to reconstitute all of the 
disabled facilities.
    U.S. experts currently overseeing disablement activities at 
Yongbyon have stated that in their view, if the site had not been shut 
down and sealed under monitoring by the International Atomic Energy 
Agency (IAEA), the facility could have remained operational and would 
have continued to produce additional fissile material. Indeed, the 5-
MW(e) reactor was in operation and producing plutonium up until the 
date of its shutdown, and several areas of the fuel rod fabrication 
facility were also in operation until mid-July. Although the 
reprocessing plant was not in operation at that time, it had operated 
as recently as 2005 when the DPRK unloaded and reprocessed its previous 
core load of spent fuel.
    If the core facilities had not been shut down in July 2007, the 
DPRK could have produced enough additional plutonium for several more 
nuclear weapons. Department of Energy experts found no indications that 
the site was at the end of its operational life.
    The question of possible sites other than Yongbyon that North Korea 
could use to reprocess weapons grade plutonium should be addressed to 
the Office of the Director of National Intelligence.

    Question. If North Korea finally does provide a comprehensive 
nuclear declaration listing their nuclear facilities, materials, and 
programs, the United States, other six-party members, and the 
International Atomic Energy Agency will need to verify the declaration 
and establish ongoing monitoring efforts to ensure that North Korea 
does not resume a weapons program.

  <bullet> Can you describe the status of the administration's planning 
        efforts with respect to a comprehensive verification regime to 
        ensure that North Korea fully declares and dismantles its 
        nuclear weapons program?
  <bullet> Everyone recognizes that the North Korean regime is paranoid 
        and tightly holds information. Can we achieve successful 
        verification of North Korea's nuclear disarmament efforts under 
        the current North Korean regime? Is it possible to devise 
        verification measures that give the United States and the 
        international community confidence that North Korea has 
        disarmed, but at the same time are not perceived as a threat to 
        the regime in Pyongyang?
  <bullet> Are the current disablement procedures of North Korea's 
        facilities at Yongbyon being undertaken in a way that preserves 
        our opportunity to verify past DPRK actions?
  <bullet> What is the proper role for the International Atomic Energy 
        Agency in a permanent verification regime for North Korea? Will 
        the six-party partners continue to take the lead in 
        implementing such measures, or should the IAEA eventually 
        assume a leadership role?

    Answer. As part of the September 19, 2005, joint statement, the six 
parties reaffirmed that the goal of the six-party talks is the 
verifiable denuclearization of the Korean Peninsula in a peaceful 
manner. Accordingly, the United States continues to develop plans to 
effectively verify North Korean denuclearization. The first, and very 
important, step is for the DPRK to provide a complete and correct 
declaration of all its nuclear programs in accordance with the February 
13 and October 3 agreements. The declaration should account for all 
DPRK nuclear programs, materials, and facilities, as well as any 
proliferation activities. Other verification activities will depend on 
what is agreed to with the six parties.
    Verification can be achieved through a variety of methods and 
technologies, including physical access, nuclear and environmental 
sample analysis, interviews with DPRK nuclear scientists, waste volume 
verification, and reviews of facility production and operation records.
    In addition, the International Atomic Energy Agency (IAEA) has 
extensive experience in conducting nuclear materials accounting and 
surveillance activities and would have an important role in monitoring 
facilities in the DPRK. However, the Agency's role must necessarily be 
limited appropriately in the areas of weapons and weaponization, in 
light of the Nuclear Non-Proliferation Treaty (NPT).
    Though challenging, verification of the DPRK's denuclearization is 
an important task that will require resourceful application of the best 
effort we can put forward, the help and assistance of other nations and 
entities such as the IAEA, as well as North Korean cooperation. The 
DPRK is aware that verification is a crucial part of denuclearization 
called for by the joint statement.
    The goal of verification is both to confirm the completeness and 
correctness of the DPRK's declaration and to confirm that the DPRK has 
fulfilled its denuclearization commitments. Verification is necessary 
to achieve the full implementation of the September 19, 2005, joint 
statement, under which the DPRK also committed to return to the NPT and 
IAEA safeguards. As I have stated previously, with full 
denuclearization, many things are possible, and the United States is 
prepared to follow through with its commitments under the joint 
statement, and the February 13 Initial Actions and October 3 Second-
Phase Actions for the Implementation of the Joint Statement, as the 
DPRK meets its obligations. The DPRK must understand that verification 
will help to bring about the implementation of the joint statement, 
which offers a clear path to a positive future on the Korean Peninsula.
    U.S. nuclear experts specifically recommended disablement 
activities so as to have a minimal impact on the verification process. 
We are confident that, with the verification approaches described 
above, the disablement activities conducted thus far will have little 
adverse effect on verification and, at the same time, will ensure that 
the DPRK would have to expend significant effort and time (upward of 12 
months) to reconstitute all of the disabled facilities.
    In the September 19, 2005, joint statement, North Korea committed 
itself to ``returning, at an early date, to the NPT and IAEA 
safeguards.'' Consistent with NPT requirements, the United States 
believes the IAEA should play an important role in the implementation 
of the September 2005 joint statement, including verification of the 
DPRK's declaration, disablement activities, and dismantlement 
activities. A full accounting of North Korea's nuclear material by the 
IAEA will smooth the way for North Korea's return to the NPT as a 
nonnuclear-weapons state in good standing.

    Question. Has North Korea made the ``strategic decision'' to 
surrender its nuclear weapons capability? Or is the regime still 
hedging its bets, waiting to see if the United States, South Korea, 
China, and Russia live up to their commitments?

    Answer. Under the September 19, 2005, joint statement, the DPRK 
committed to abandoning all nuclear weapons and existing nuclear 
programs and returning, at an early date, to the Treaty on the Non-
Proliferation of Nuclear Weapons (NPT) and to International Atomic 
Energy Agency (IAEA) safeguards. The DPRK, per the February 13, 2007, 
``Initial Actions for the Implementation of the Joint Statement,'' shut 
down and sealed the core nuclear facilities at Yongbyon and invited 
back the IAEA to conduct monitoring and verification activities, as 
provided for in the February 13 agreement. Under the October 3, 2007, 
``Second-Phase Actions for Implementation of the Joint Statement,'' the 
DPRK agreed to disable all existing nuclear facilities subject to 
abandonment under the September 2005 joint statement and February 13 
initial actions agreement, beginning by disabling the three core 
facilities at Yongbyon by the end of 2007.
    Disablement of the three core facilities at Yongbyon--the 5-MW(e) 
nuclear reactor, reprocessing plant, and fuel rod fabrication 
facility--is proceeding well and most of the agreed tasks have been 
completed. We are still awaiting from the DPRK its provision of a 
complete and correct declaration of all its nuclear programs, which was 
due by the end of 2007. Upon completion of the ``second phase'' actions 
we intend to move on to the next phase toward full implementation of 
the September 19, 2005, joint statement, under which the DPRK committed 
to abandoning all its nuclear weapons and existing nuclear programs. 
The United States will continue to honor its commitments according to 
the principle of ``action-for-action''; as the DPRK fulfills its 
commitments, the United States and other parties will also fulfill 
theirs.

                                 <all>

      

</pre></body></html>
